APPENDICES

1a
APPENDIX A

PUBLISH
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
________________________________________
LT. COL. PATRICK SCHREIBER,
Plaintiff - Appellant,
v.

No. 18-3215

KENNETH T. CUCCINELLI,
Acting Director, U.S. Citizenship
and Immigration Services; DAVID
DOUGLAS, District Director,
U.S. Citizenship and Immigration
Services; CHAD F. WOLF, Acting
Secretary, U.S. Department of
Homeland Security; WILLIAM
BARR, Attorney General, the
U.S. Department of Justice, *
Defendants - Appellees,
CHILDREN AND FAMILY LAW
CENTER; ADOPTEE RIGHTS
CAMPAIGN,
Amici Curiae.
Plaintiff commenced his lawsuit against certain specified
federal-agency defendants in their official capacities. The listed
Defendant-Appellees reflect the automatic substitution of
officials pursuant to Federal Rule of Appellate Procedure
43(c)(2).
*

2a
__________________________________
Appeal from the United States District Court
for the District of Kansas
(D.C. No. 2:17-C V-02371-DDC-JPO)
__________________________________
Robert D. Friedman, Institute for Constitutional
Advocacy and Protection (Rekha Sharma-Crawford,
Sharma-Crawford, Attorneys at Law, LLC; Joshua A.
Geltzer, Institute for Constitutional Advocacy and
Protection, with him on the briefs), Washington, D.C.,
for Plaintiff-Appellant.
T. Monique Peoples, Senior Litigation Counsel,
U.S. Department of Justice, Office of Immigration
Litigation (Joseph H. Hunt, Assistant Attorney
General, U.S. Department of Justice; William C.
Peachey, Director, Office of Immigration Litigation;
Elianis N. Perez, Assistant Director, Office of
Immigration Litigation, with her on the brief),
Washington, D.C., for Defendants-Appellees.
_________________________________
Before TYMKOVICH, Chief Judge, BALDOCK, and
HOLMES, Circuit Judges.
_________________________________
HOLMES, Circuit Judge.
_________________________________
This case presents the issue of whether a father’s
adopted child can qualify as his “legitimated” child for
purposes of § 101 (b)(1)(C) of the Immigration and
Nationality Act (“Act”), 8 U.S.C. § 1101(b)(1)(C), when
the child is not his biological child. The Act provides,

3a
in relevant part, that “an unmarried person under
twenty-one years of age” qualifies as a “legitimated”
child if she is “legitimated under the law of [her]
residence or domicile, or under the law of [her] father’s
residence or domicile,” and if “[her] legitimation takes
place before [she] reaches the age of eighteen years.”
8 U.S.C. § 1101(b)(1)(C). The parties agree that the
Act looks to state law to determine how a parent may
legitimate an eligible child (that is to say, for the legal
procedures through which legitimation may be
effected). But they disagree over whether the Act also
looks to state law to define whom (i.e., which children)
a parent may legitimate.
Accordingly, we must now decide whether the
Board of Immigration Appeals (“BIA”)—that is, the
federal agency charged with ultimately interpreting
the Act—erred in ruling that, because it is implicit in
the concept of legitimation that a parent may
legitimate only his biological children, the Act need
not and does not look to state law to see whether
parents may legitimate someone other than their
biological children. Like the district court, we
determine that the BIA correctly interpreted the Act’s
plain meaning and, thus, did not err in ruling that a
parent’s non-biological child may not be his
“legitimated” child within the meaning of the Act. We
also hold that the district court did not violate the
Supreme Court’s rule in Darby v. Cisneros, 509
U.S. 137 (1993), when it declined to entertain the
gender-discrimination challenge of plaintiff-appellant
Lieutenant
Colonel
Patrick
Schreiber
(“Mr. Schreiber”) to the BIA’s interpretation of the Act
because he failed to exhaust this argument in his
purportedly optional appeal to the BIA. Exercising
jurisdiction under 28 U.S.C. § 1291, we affirm the
judgment below.

4a
I
A
We begin by outlining in more detail the legal
contours of the dispute and our resolution of it. When
Mr. Schreiber asked the U.S. Citizenship and
Immigration Services (“USCIS”) to classify his
adopted daughter, Hyebin, as his “child” for purposes
of § 101(b)(1) of the Act to start her on the path to
obtaining lawful permanent residency, the USCIS
notified him that it planned to deny his I-130
petition. 1 The USCIS explained that Hyebin did not
qualify under the Act as his “adopted” child because
the Act limited that category to children “adopted
while under the age of sixteen years,” see 8 U.S.C.
§ 1101(b)(1)(E)(i), whereas Mr. Schreiber had adopted
her when she was seventeen years old. Mr. Schreiber
replied that Hyebin instead was his “legitimated”
child, asserting in support that (1) Kansas law
considers an adopted child to be “legitimated,” and
(2) the Act defines the term “child” to include “a child
legitimated under the law of the child’s [or the
father’s] residence or domicile, . . . if such legitimation
takes place before the child reaches the age of eighteen
years.” Id. § 1101(b)(1)(C) (emphasis added).
The USCIS and later the BIA rejected
Mr. Schreiber’s position on the ground that Hyebin
could not be his “legitimated” child under the Act
because she was not his biological child. In pursuing
judicial review of the BIA’s final agency action in
federal district court, Mr. Schreiber raised for the first
The parties do not dispute that Hyebin satisfied at least one
element of a “child” under the Act—viz., she was “an unmarried
person under twenty-one years of age.” 8 U.S.C. § 1101(b)(1). We
refer to her as “Hyebin” in keeping with the naming convention
that Mr. Schreiber employs in his briefing.
1

5a
time a gender-discrimination challenge to the BIA’s
interpretation of the statutory term “legitimated.”
The district court held that the BIA had correctly
interpreted the term’s unambiguous meaning and
declined to consider Mr. Schreiber’s genderdiscrimination challenge because he had failed to
raise it in his purportedly optional administrative
appeal to the BIA. Mr. Schreiber timely appeals from
the district court’s judgment, which upheld the BIA’s
rejection of his I-130 petition.
We agree with the district court that when the Act
speaks of a “legitimated” child in 8 U.S.C.
§ 1101(b)(1)(C), Congress unambiguously meant a
child who is the biological child of her legitimating
parent. We further conclude that the district court
properly declined to review Mr. Schreiber’s lateblooming gender-discrimination challenge to the
BIA’s final agency action. Therefore, we affirm the
district court’s judgment.
B
Mr. Schreiber and his wife are United States
citizens and Kansas residents. In 2012, Hyebin, who
is the niece of Mr. Schreiber’s wife, moved from her
native South Korea to Kansas in order to live with the
Schreibers and attend high school. In 2014, the
Schreibers adopted Hyebin under Kansas law with
the consent of her biological parents. She was
seventeen years old. The Kansas adoption decree
stated that Hyebin “is hereby the child and heir-atlaw” of the Schreibers, who “are entitled to exercise
any and all rights of parents of [Hyebin] and are
subject to all of the liabilities of that relationship.”
Aplt.‘s App. at 207 (Decree of Adoption, dated Nov. 17,
2014). Kansas issued Hyebin a new birth certificate
listing the Schreibers as her parents. No one before us

6a
doubts the authenticity of the familial bond that
Hyebin shares with her parents.
In 2015, Mr. Schreiber filed an I-130 petition with
the USCIS, seeking to have Hyebin classified as his
“child” for purposes of 8 U.S.C. § 1101(b)(1) and
stating that he was related to her “by adoption.” Id.
at 194 (I-130 Pet., filed Apr. 14, 2015). Mr. Schreiber
filed the petition with the assistance of counsel, who
attached a legal memorandum contending that
Hyebin was Mr. Schreiber’s “legitimated” child
because (1) she was “born out of [the Schreibers’]
wedlock” and was now “fully and lawfully” his child,
and (2) the State of Kansas had “erase[d] any legal
distinctions between natural children and legitimized
children.” Id. at 183 (Mem. of Law in Supp. of I-130
Pet., dated Apr. 13, 2015). The USCIS responded by
sending Mr. Schreiber a “Notice of Intent to Deny,”
informing him that “because [Hyebin] was sixteen
years or older at the time of adoption, it would appear
that [she] cannot be classified as [his] adopted child
for immigration purposes.” Id. at 173 (Notice of Intent
to Deny, dated Nov. 10, 2015). Mr. Schreiber
reminded the USCIS by letter that he was petitioning
to have Hyebin declared his “child” based solely on
“the theory” that she “should and would be considered
a legitimated child under the [Act].” Id. at 178 (Pet’r’s
Letter to USCIS, dated Nov. 23, 2015). He did not
raise before the USCIS the argument that the
U.S. Constitution required the government to
interpret the Act in a manner that deemed Hyebin to
be his “legitimated” child.
The USCIS denied Mr. Schreiber’s petition on the
basis that Hyebin was neither his “adopted” child nor
his “legitimated” child, for purposes of “section
101(b)(1) of the Act,” i.e., 8 U.S.C. § 1101(b)(1). Id. at
171 (USCIS Decision, dated June 10, 2016). The

7a
USCIS determined that Hyebin could not “qualify as
[Mr. Schreiber’s]
legitimated
child”
under
§ 1101(b)(1)(C) because Mr. Schreiber was “not [her]
natural father.” Id.
Mr. Schreiber appealed from the USCIS’s decision
to the BIA. He conceded that the BIA had been clear
in In re Bueno-Almonte (“Bueno”), 21 I. & N. Dec. 1029
(BIA 1997), that the very concept of legitimation
implies that only a child’s natural (i.e., biological)
parent can legitimate her. Mr. Schreiber nonetheless
argued that, for immigration purposes, Hyebin
qualified as his “legitimated” child because (1) the Act
“g[ave] total deference to State law to determine
whether or not [a] child is considered ‘legitimated,’”
and (2) “Kansas law authorizes adoption as a method
of legitimation.” Id. at 88, 91 (Br. in Supp. of Appeal,
dated July 25, 2016). Mr. Schreiber also asserted that
if Hyebin were his “legitimated” child under Kansas
law, but the BIA did not acknowledge her as such, the
BIA would thereby deprive him of “an essential part
of the Liberty protected by the Fifth Amendment,” id.
at 92 (quoting U.S. v. Windsor, 570 U.S. 744, 769
(2013), and “deny her equal protection,” id.
The Washburn Law Clinic appeared before the
BIA as amicus curiae and asserted that the BIA’s
interpretation of the Act would violate Mr. Schreiber’s
“right to equal protection” if it distinguished between
“parents who derive paternity by adoption and those
who derive paternity by biology . . . in such a way that
merely perpetuate[d] the odious regime against
‘illegitimate’ children that haunted Anglo-American
law for centuries.” Id. at 145 (Br. of Amicus Curiae,
dated Mar. 27, 2017).
In a single-member decision, adhering to Bueno,
the BIA upheld the USCIS’s denial of Mr. Schreiber’s
petition under the rationale that a parent may

8a
legitimate only his “biological child.” Id. at 125
(Decision of the BIA, dated June 5, 2017). “To the
extent that constitutional arguments have been
raised,” it reasoned, “the [BIA] does not have
jurisdiction to rule on the constitutionality of the laws
it administers.” Id.
Mr. Schreiber then sought judicial review in
federal district court of the BIA’s final agency action,
under the Administrative Procedure Act (“APA”),
5 U.S.C. § 702. He renewed his statutory arguments
that the Act defers entirely to state law when
determining whether a child has been legitimated and
that Kansas law considers adopted children to be
legitimated children. And he raised for the first time
an equal-protection challenge in which he contended
that the BIA’s interpretation of the Act had the effect
of discriminating against him on the basis of gender
because—following that interpretation—immigration
officials did not recognize his adoption of his nonbiological child as a “legitimation” under the Act,
whereas immigration officials—under established
policy—did recognize the state-law legitimations of
children lacking any genetic relationship with their
legitimating mother (viz., children born to women who
used assisted reproductive technology). 2
The district court upheld the BIA’s decision—
ruling that the agency’s interpretation of the
statutory term “legitimated” child accorded with its
unambiguous meaning. Aplt.’s App. at 26–27 (Mem. &
Order, filed Sept. 28, 2018). The district court
declined to consider Mr. Schreiber’s genderdiscrimination-based equal-protection challenge to
Mr. Schreiber also presented to the district court a Tenth
Amendment challenge to the BIA’s interpretation of the Act. See
Aplt.’s App. at 252 (Pl. Opening Br., filed Dec. 22, 2017). He has
since abandoned that argument. See Aplt.’s Opening Br. at 9 n.2.
2

9a
the BIA’s interpretation of the Act because he had
failed to present that challenge to the BIA. This timely
appeal follows.
II
The first issue we must consider is whether the
BIA has properly construed the meaning of the phrase
“a child legitimated under the law of the child’s [or the
father’s] residence or domicile”—as it is used in
8 U.S.C. § 1101(b)(1)(C)—and, more specifically, the
term “legitimated.” The BIA, relying on its precedent
in Bueno, held that a child “must be the biological
child” of a legitimating parent “to qualify as the
legitimated child of [the parent]” under the Act. Aplt.’s
App. at 125.
The government asserts that the Act requires “a
biological relationship between [the] parent and child”
and urges us to affirm the BIA under either the Act’s
unambiguous meaning or the deference we grant to an
agency’s reasonable interpretation of an ambiguous
statute under Chevron, U.S.A., Inc. v. Natural
Resources Defense Council, Inc., 467 U.S. 837 (1984).
Aplee.’s Resp. Br. at 14, 31. Mr. Schreiber, in contrast,
contends that the statute unambiguously looks to
state law to determine whether a child has been
properly legitimated and, in any event, does not add a
biological-relationship requirement to that purely
state-law determination. See Aplt.’s Opening Br. at
16–19, 27–31. Mr. Schreiber maintains in the
alternative that, if the Act is ambiguous on this point,
the BIA’s interpretation of it is unreasonable and does
not warrant Chevron deference. Id. at 32–34. In our
view, the BIA is correct: that is, it is implicit in the
concept of legitimation that only a child’s biological
parent can legitimate her, and the statute is
unambiguous in this respect.

10a
A
“Although this is an appeal from the district
court’s decision, we accord no particular deference to
that decision” and “conduct our own independent
review of the agency’s decision.” Maralex Res., Inc. v.
Barnhardt, 913 F.3d 1189, 1198 (10th Cir. 2019); see
N.M. Health Connections v. U.S. Dep’t of Health &
Human Servs., 946 F.3d 1138, 1161 (10th Cir. 2019)
(“‘In reviewing the agency’s action, we must render an
independent decision using the same standard of
review applicable to the [d]istrict [c]ourt[‘s]’ review.”
(alterations in original) (quoting Olenhouse v.
Commodity Credit Corp., 42 F.3d 1560, 1580
(10th Cir. 1994))).
The question here is whether the statutory phrase
“a child legitimated under the law of the child’s [or the
father’s] residence or domicile” requires the child’s
legitimating parent to be her biological parent. We
“generally afford Chevron deference to the BIA’s
interpretation of the [Act]” because “Congress charged
the Attorney General with administering the [Act],
and the Attorney General delegated that duty to the
BIA.” Rangel-Perez v. Lynch, 816 F.3d 591, 597
(10th Cir. 2016); see INS v. Aguirre-Aguirre, 526
U.S. 415, 424–25 (1999) (holding that Chevron
deference applies when the BIA gives ambiguous
statutory terms in the Act “concrete meaning through
a process of case-by-case adjudication” (quoting I.N.S.
v. Cardoza-Fonseca, 480 U.S. 421, 448 (1987)));
Barrera-Quintero v. Holder, 699 F.3d 1239, 1244
(10th Cir. 2012) (holding that Chevron deference
extends to a nonprecedential, single-member BIA
decision, as here, “if it relies on prior BIA precedent
addressing the same question” (quoting Efagene v.
Holder, 642 F.3d 918, 920 (10th Cir. 2011))); see also
8 U.S.C. § 1103(g) (setting forth the Attorney

11a
General’s powers and duties under the Act). But we
may defer to the BIA’s interpretation only when “the
statute is ambiguous or silent as to the issue at hand.”
Flores-Molina v. Sessions, 850 F.3d 1150, 1157
(10th Cir. 2017) (quoting Carpio v. Holder, 592 F.3d
1091, 1096 (10th Cir. 2010)). We conclude that the
statutory language at issue here is unambiguous; it
requires the child’s legitimating parent to be her
biological parent.
In determining the meaning of a statute “[a]t the
first step of the Chevron analysis, ‘we must giv[e] all
undefined terms their ordinary meaning.’” Maralex
Res., 913 F.3d at 1199 n.4 (last alteration in original)
(quoting Nat’l Credit Union Admin. Bd. v. Nomura
Home Equity Loan, Inc., 764 F.3d 1199, 1227
(10th Cir. 2014)); see also Harbert v. Healthcare Servs.
Grp., Inc., 391 F.3d 1140, 1147 (10th Cir. 2004)
(describing Chevron’s “two-step inquiry” and
recounting that, at the first step, the inquiry is into
“whether Congress has directly spoken to the precise
question at issue” (quoting Chevron, 467 U.S. 837, 842
(1984))). We focus “on the ordinary meaning of the
[term] at the time Congress enacted it.” Nat’l Credit
Union Admin. Bd., 764 F.3d at 1227 (alteration in
original) (quoting BedRoc Ltd., LLC v. United States,
541 U.S. 176, 184 (2004) (plurality opinion)).
Congress enacted the provision at issue in this
case, § 101(b)(1)(C), in 1952 as part of the original Act.
See Act of June 27, 1952, ch. 477, § 101(b)(1)(C), 66
Stat. 163, 171 (1952). The Supreme Court has stated
that because “Congress has been actively engaged in
delineating just how broad it wishes the [Act’s]
definition of ‘child’ to be,” “we are especially bound to
pay heed to the plain mandate of the words Congress
has chosen.” INS v. Hector, 479 U.S. 85, 90 n.6
(1986) (per curiam); see also id. at 88 (observing that

12a
8 U.S.C. § 1101(b)(1)’s “definition of the term ‘child’ is
particularly exhaustive”).
The word “legitimated” when used to describe a
“child” has long meant something very specific in the
law. In Pfeifer v. Wright, 41 F.2d 464 (10th Cir. 1930),
for example, we explained that—as understood at
common law—the legal process of “legitimation”
involved taking “an illegitimate child,” who “was
without right even to the name of its natural father,”
and “placing the child in all respects upon the same
footing as if begotten and born in wedlock.” Id. at
465–66 (emphasis added). We noted that “by whatever
method made, when made, the [legitimated] child is
invested with all the rights of a lawful child,” “[i]ts
civil and social status becomes that of a lawful child
of the natural father, and the child and father
thereafter stand in their relations to each other as
though the birth had been during wedlock.” Id. at 466
(emphasis added). We observed as well that there was
no “uniform” standard for legitimation among “the
several states”—some states “require[d] marriage of
the mother and putative father and recognition of the
child,” whereas other states required “less exacting
[acts] to effect legitimation”—and that the “[l]aws of
the domicile of the father at the time he acts
determine the effect of his acts, and if his acts are such
as to effectuate legitimation as declared by those laws,
the status of the child is thereby changed from
illegitimate to legitimate.” Id.
In Pfeifer, we reviewed whether an illegitimate
child had been legitimated under Kansas law because
her father, who never married her mother,
nonetheless openly recognized her as his daughter,
helped raise her as a child, and regularly provided for
her and later her children, “show[ing] a fatherly
affection for [her] from her birth until his death.” Id.

13a
at 465. The question of whether the father had
thereby legitimated his daughter was relevant
because he had amassed a considerable estate in
Oklahoma and died without any heirs or survivors
other than his wife unless, of course, his biological
daughter also was one. Id. We concluded that
although the father’s acts had satisfied the
requirements of a Kansas statute that authorized
illegitimate children to inherit property in Kansas
under specified conditions, the daughter had not
thereby been legitimated because the statute did not
display “a legislative intention to change the status of
a [covered] child from illegitimate to legitimate.” Id.
at 467. The daughter, therefore, could not hold herself
out to Oklahoma as her father’s legitimated child and
heir. Id. at 468.
In defining the legal backdrop for its ruling,
Pfeifer explained that legitimation was traditionally
understood to be a state-law process whereby a father
recognized his natural (i.e., biological) child—born out
of wedlock—as his own, converting her into his
legitimate child, and that the specific means by which
the father accomplished that recognition (of his
paternity) was left to state law. See id. at 465–66. We
also learned from Pfeifer that, traditionally, a child
was not deemed to be legitimated unless the state law
of such a father’s domicile itself said that the father’s
actions were sufficient to legitimate the child. See id.
at 466. Thus, our precedent in Pfeifer highlights that,
traditionally, the concept of “legitimation” effectively
runs along two axes: one defines who can be
legitimated (viz., the biological offspring of the
legitimating parent), and the other defines how they
can be legitimated (viz., by means of state law
processes disclosing a legislative intent to effectuate
their legitimation).

14a
We conclude that the Congress that enacted the
Act in 1952 intended to employ this traditional
understanding of whom a parent may legitimate—
only his biological offspring—when referring to
“legitimation” and “a child legitimated” in
§ 101(b)(1)(C). 66 Stat. at 171 (codified at 8 U.S.C.
§ 1101(b)(1)(C)). Congress used “legitimation” only
three other times in the original 1952 Act—in
§§ 309(a), 309(b), and 321(a)(3), all of which concerned
the naturalization of children. Id. at 238, 245. In each
instance, the Act plainly used the term “legitimation”
to refer to a method of “establish[ing] . . . the paternity
of [a] child . . . born out of wedlock.” Id. at 238; see
Miller v. Albright, 523 U.S. 420, 435 (1998) (plurality
opinion) (recognizing that § 309(a) used legitimation
as a “means of proving a biological relationship”
between “a [child] born out of wedlock” and her
biological father); Matter of Cross, 26 I. & N. Dec. 485,
492 (BIA 2015) (recognizing that § 321(a)(3) had used
“legitimation . . . as a mechanism for establishing
paternity”).
Absent evidence that Congress intended the term
legitimation to mean different things throughout the
Act, “it is a normal rule of statutory construction that
identical words used in different parts of the same act
are intended to have the same meaning.” Maralex
Res., 913 F.3d at 1200 n.5 (quoting Pereira v. Sessions,
138 S. Ct. 2105, 2115 (2018)); see Envtl. Def. v. Duke
Energy Corp., 549 U.S. 561, 574 (2007) (calling this
rule a “natural presumption” (quoting Atl. Cleaners &
Dyers, Inc. v. United States, 286 U.S. 427, 433
(1932))); Estate of Cowart v. Nicklos Drilling Co., 505
U.S. 469, 479 (1992) (stating it is a “basic canon of
statutory construction that identical terms within an
Act bear the same meaning”); see also Nat’l Credit
Union Admin. Bd., 764 F.3d at 1230 (“Even when a

15a
statute does not explicitly define a particular term, we
might gain understanding of the term from how it is
used elsewhere in the statute.”); Utah v. Babbitt, 53
F.3d 1145, 1149 (10th Cir. 1995) (“[S]tatutory terms
are often clarified by the remainder of the statutory
scheme—because the same terminology is used
elsewhere in a context that makes [the term’s]
meaning clear . . . .” (alteration and omission in
original) (quoting Rake v. Wade, 508 U.S. 464, 474
(1993))). Thus, because we see no reason why
Congress meant “legitimation” to mean something
else in § 101(b)(1)(C) than it did in other sections of
the Act, we are inclined to conclude that § 101(b)(1)(C)
uses the term “legitimation” to refer to a change-ofstatus process between only a child and her biological
parent.
We find further support for such a conclusion in
dictionary definitions of the word “legitimation” (or
derivatives thereof) as it is used to describe a child.
See Maralex Res., 913 F.3d at 1199 n.4 (observing that
“[w]e may consult a dictionary to determine the plain
meaning of a term” (quoting Conrad v. Phone
Directories Co., 585 F.3d 1376, 1381 (10th Cir. 2009))).
In Blythe v. Ayres, 31 P. 915 (Cal. 1892), the California
Supreme Court observed that the “law dictionaries” of
the late nineteenth century, including Black’s,
Bouvier’s, Anderson’s, and Rapalje’s, agreed that
there was a fundamental legal distinction between an
adopted child and a legitimated child in AngloAmerican law:
“[a]doption, properly considered,
refers to persons who are strangers in blood;
legitimation, to persons where the blood relation
exists.”
Id. at 916; see also id. (“This is the
distinguishing feature between adoption and
legitimation, as recognized by all the standard lawwriters of the day who have written upon the subject;

16a
and for the reason that the text-writers and the
decisions of courts, to which we shall look for light and
counsel, treat the subject [of when a father adopts his
illegitimate biological child] as a question of
legitimation, we shall view the matter from that
stand-point.”).
And, from an examination of historically relevant
legal and non-legal dictionaries, it seems clear to us
that the concept of a “legitimated” child that Congress
understood when it enacted the Act in 1952 was
restricted to children who were the biological offspring
of the legitimating parent. Compare Adoption of
Child, BALLENTINE’S LAW DICTIONARY (3d ed. 1969)
[hereinafter BALLENTINE’S] (“The means by which the
legal relationship of parent and child between persons
who are not so related by nature is established or
created . . . .” (emphasis added)), and Adoption,
WEBSTER’S
THIRD
NEW
INT’L
DICTIONARY
(1961) [hereinafter WEBSTER’S] (“[T]o take by free
choice into a close relationship previously not existing
esp. by a formal legal act . . . specif:
to take
voluntarily (a child of other parents) to be in the place
of or as one’s own child . . . .”), with Legitimation,
BALLENTINE’S (“In the accepted sense, the act of giving
the status of a legitimate child to one born out of
wedlock, such being done sometimes by statute . . .
but most frequently by the subsequent marriage of the
parents (emphasis added)), and Legitimate,
WEBSTER’S (“to put (a bastard) in the position or state
of a legitimate child before the law by legal means (as
the subsequent marriage of the parents)” (emphasis
added)). Compare also Adopt, THE AMERICAN
HERITAGE DICTIONARY OF THE ENGLISH LANGUAGE
(1969) (“To take into one’s family through legal means
and raise as one’s own child.” (emphasis added)), with

17a
Legitimate, id. (“Born in wedlock.”). 3 Indeed, that
fundamental legal distinction between adoption and
legitimation continues to this day. Adoption, BLACK’S
LAW DICTIONARY (11th ed. 2019) [hereinafter
BLACK’S] (“Adoption is distinguishable from
legitimation . . . . Adoption usu. refers to an act
between persons unrelated by blood; legitimation
refers to an act between persons related by blood.”).
To be sure, Congress has said that a child will be
considered “legitimated” for purposes of the Act only
if she has been “legitimated under the law of [her or
her father’s] residence or domicile.”
8 U.S.C.
§ 1101(b)(1)(C). But we do not read the Act as thereby
providing that the concept of “legitimation” itself is an
empty vessel that states may fill however they wish.
To the contrary, we believe for the above reasons that
Congress’s use of the term “legitimated” in
§ 1101(b)(1)(C) unambiguously contemplates—as a
threshold matter—that only a legitimating parent’s
biological children can qualify as the parent’s
“legitimated” children; that is, the statute’s plain
terms answer the question of whom parents may
legitimate. See Food Mktg. Inst. v. Argus Leader
Media, 139 S. Ct. 2356, 2363 (2019) (observing that
“dictionary definitions” and “case law” can “shed light
on [a] statute’s ordinary meaning”); Sims v. W. Steel
Co., 551 F.2d 811, 820 (10th Cir. 1977) (gleaning a
term’s “plain meaning” from “dictionary definitions
and case law”). Then, the Act turns to state law for the
See Antonin Scalia & Bryan A. Garner, READING LAW: THE
INTERPRETATION OF LEGAL TEXTS 418–19, 422–23 (2012) (listing
among the “primary principles . . . in using dictionaries” the
principle that “[d]ictionaries tend to lag behind linguistic
realities” and, for the time period 1951–2000, including (among
others) the legal and non-legal dictionaries cited in the foregoing
compare and compare also citations).
3

18a
applicable process to determine which of those
biological children have been in fact legitimated—
viz., to answer the question of how legitimation is
effected among those children eligible to be
legitimated. See Pfeifer, 41 F.2d at 466 (observing that
the “[s]tatutes of the several states . . . are not
uniform on the subject [of the acts a parent must
perform to legitimate his biological child]”). Yet, in
doing so, the Act does not abandon the plain meaning
of who can be legitimated.
In sum, we hold that the BIA correctly interpreted
the term “legitimated” in § 101(b)(1)(C) of the Act (i.e.,
8 U.S.C.
§ 1101(b)(1)(C))
as
plainly
and
unambiguously requiring that a legitimated child
must be the legitimating parent’s biological child. As
such, our conclusion regarding the proper
interpretation of the Act does not turn on the
application of Chevron deference. See, e.g.,
Kingdomware Techs., Inc. v. United States, 136 S. Ct.
1969, 1979 (2016) (holding that even if an agency
interpretation “could be owed Chevron deference, we
do not defer to the agency when the statute is
unambiguous”).
B
Mr. Schreiber agrees that § 101 (b)(1)(C) of the
Act is unambiguous, but he contends that it means the
exact opposite of what we have said. He asserts that
the Act defers to state law in determining not only
how a child is legitimated (i.e., the process by which
an eligible child is legitimated), but also concerning
whom a parent can legitimate (i.e., the category of
children a parent may legitimate). See Aplt.’s Opening
Br. at 17–18. He relies on three main cases to support
his position that Congress left it to the states to
determine for themselves the latter issue, viz., the
category of children a parent may legitimate. See id.

19a
at 17–20. He also contends that deferring to state-law
understandings of legitimation that permit a parent
to legitimate any child promotes Congress’s intent of
“keeping families together.” See id. at 23–25. He
further contends that the Act does not indicate that a
parent may legitimate only his biological children
because § 101(b)(1)(C) speaks in terms of fathers and
legitimating parents, whereas subsections (D) and (E)
of § 101(b)(1) speak in terms of natural fathers and
natural parents, thereby showing, he asserts, that a
legitimating parent need not be a natural parent. See
id. at 27-29. We discuss each of his arguments in turn,
explaining why we believe that they are all
unavailing.
1
Mr. Schreiber directs our attention to three cases
which, he asserts, support the proposition that the Act
defers to state law when determining whether a
parent may legitimate a child who is not his biological
offspring. He directs us first to Matter of Cross, 26 I.
& N. Dec. 485 (BIA 2015), where the BIA held “that a
person born abroad to unmarried parents can qualify
as a legitimated ‘child’ under section 101 (c)(1) of the
Act if he or she was born in a country or State that has
eliminated all legal distinctions between children
based on the marital status of their parents . . . ,
irrespective of whether the country or State has
prescribed other legal means of legitimation.” Id. at
485–86. More specifically, the BIA determined in
Cross that a child born in Jamaica to unwed parents
was legitimated “by operation of law” because he was
born after Jamaica “had eliminated the legal
distinctions between legitimate and illegitimate
children in that country,” i.e., “between children born
in wedlock and those born out of wedlock.” 26 I. & N.
Dec. at 486, 488, 490.

20a
Mr. Schreiber directs us to Cross because the BIA
declared in a footnote that “[b]y tying the meaning of
‘legitimation’ to the requirements of the law of the
child’s residence or domicile (or that of the father),
Congress anticipated that the meaning of the term
would vary depending upon . . . the law in the country
or State of residence or domicile,” indicating that
legitimation is “an evolving, rather than a fixed,
concept.” Aplt.’s Opening Br. at 17 (ellipsis in
original) (emphasis omitted) (quoting Cross, 26 I. & N.
Dec. at 492 n.8). Mr. Schreiber asserts that the Cross
footnote “rightly . . . embrace[s]” the notion that, if a
state also has expanded its conception of legitimation
to permit parents to legitimate their non-biological
children, those children may qualify as “legitimated”
children for purposes of the Act. Id. at 17–18. We
disagree. Nothing in Cross suggests that Congress
intended the Act to adopt state-law ideas about whom
a parent may legitimate. Indeed, the BIA did not even
have occasion to question that a parent can legitimate
only his biological children because, in that case, there
was “no dispute that the respondent is the biological
child of the man through whom he seeks to derive
United States citizenship or that he was born in
Jamaica.” Cross, 26 I. & N. Dec. at 493; see id. at 490
(observing that “[a]lthough Jamaica . . . enacted laws
that effectively eliminated the legal distinction
between children born in wedlock and those born out
of wedlock, [it] retained a formal means of
legitimating—the marriage of the biological parents”).
Instead, we believe that Cross suggests only that a
state may redefine how a child is legitimated under its
laws (by, for example, automatically legitimating a
child born out of wedlock by operation of law)—as
opposed to whom a parent may legitimate. See id. at
488, 492.

21a
Mr. Schreiber also directs our attention to the
Supreme Court’s decision in De Sylva v. Ballentine,
351 U.S. 570 (1956), where the Court turned to state
law to determine whether “an illegitimate child is
included within the term ‘children’ as used in [the
copyright-renewal provision of the then-existing
federal Copyright Act].” Id. at 580; see also id. at 571
(noting that the renewal provision provided that “the
widow, widower, or children of the author, if the
author be not living, . . . shall be entitled to a renewal
and extension of the copyright in [the author’s] work”
under certain circumstances (quoting 17 U.S.C. § 24
(1955))). The Court observed that, although the
author’s illegitimate child was his child in terms of “a
purely physical relationship,” the Copyright Act’s
renewal provision used “[t]he word ‘children’ . . . [to]
also describe[] a legal status.” Id. at 580. And because
“there is no federal law of domestic relations,” the
Court answered the question of whether an author’s
illegitimate child qualified as one of his “children”
under the renewal provision by “refer[ring] to the law
of the State which created those legal relationships.”
Id. The Court, however, declared that it would not
defer to state law in defining the term “children,” as
used in the federal statute, if the state has redefined
the term beyond its “ordinary concept.” Id. at 581; see
also id. (stating that although the Court was
“draw[ing] on the ready-made body of state law to
define the word ‘children’ in [the Copyright Act],” that
“does not mean that a State would be entitled to use
the word ‘children’ in a way entirely strange to those
familiar with its ordinary usage”). The Court then
held that the author’s illegitimate child qualified as
one of his “children” for purposes of the Copyright
Act’s renewal provision, which provided “a compulsory
bequest of the [author’s] copyright to [his children],”

22a
because that child qualified as “an heir of the author”
under the law of the relevant state. Id. at 582.
Mr. Schreiber argues that De Sylva requires us to
deem Hyebin, who is not his biological offspring,
“legitimated” for purposes of 8 U.S.C. § 1101(b)(1)(C)
because he legitimated her under Kansas law by
adopting her. Although he acknowledges that De
Sylva would counsel against our deferring to Kansas
law if its understanding of who can become his
legitimated child deviates from “the ordinary
concept,” Aplt.’s Opening Br. at 18 (quoting De Sylva,
351 U.S. at 581), he does not give us a single word in
support of why Kansas’s conception of legitimation—
which, he maintains, authorizes parents to legitimate
their non-biological children in addition to, as is
traditionally the case, their biological children—falls
within ordinary conceptual bounds, thus waiving such
a critical argument, Arlin Geophysical Co. v. United
States, 946 F.3d 1234, 1238 n.4 (10th Cir. 2020)
(“Because [the appellant] failed to raise this argument
in his opening brief, it is waived.”). Mr. Schreiber, in
the end, cannot prevail under De Sylva because he
fails to show that we should defer under that case to
Kansas’s alleged position that a parent may
legitimate children who are not the parent’s biological
offspring.
Mr. Schreiber, in any event, fails to prove that he
legitimated Hyebin under Kansas law by adopting
her. Under the argument heading “Kansas law
recognizes Hyebin as Lt. Col. Schreiber’s legitimated
daughter,” he dedicates only one short paragraph of
his opening brief to this issue. Aplt.’s Opening Br. at
25 (bolding omitted). He contends that “adoption
effectuates legitimation” under Kansas law because
Kan. Stat. § 59-2118(b) results in “an adopted child
[being] treated as though she had been born in

23a
wedlock to two married parents.” Id. But that is not
correct: § 59-2118(b) does not assume that all adopted
children were born outside of wedlock. See, e.g., In re
J.M.D., 260 P.3d 1196, 1198 (Kan. 2011) (affirming
the adoption by their step-father of two children born
in wedlock to their birth parents). The statute instead
provides that an adopted child “shall be entitled to the
same personal and property rights as a birth child of
the adoptive parent,” and such adopted parent “shall
be entitled to exercise all the rights of a birth parent
and be subject to all the liabilities of that
relationship.” Kan. Stat. § 59-2118(b).
The statute thereby places an adopted child on the
same plane in terms of personal and property rights
as the adoptive parent’s natural child, but it says
nothing about treating the adopted child as if she were
the product of the adoptive parent’s marital union. To
be sure, if both partners in a marriage were to adopt
a child (or if one of them were already the child’s legal
parent), her adoption at least arguably would result
in her being treated under Kansas law “as though she
had been born in wedlock to [those] married parents.”
See Aplt.’s Opening Br. at 25. But that is different
from saying that her adoption necessarily would make
her the legitimated (as opposed to legal) child of her
adoptive parent(s). That is especially true where, as
here, the adopted child was not the illegitimate
natural child of her adoptive parents. Indeed, like the
one at issue in Pfeifer, the Kansas statute at issue
here does not reveal on its face “a legislative intention
to change the status of [an adopted] child from
illegitimate to legitimate,” and because Mr. Schreiber
does not point us to any authority that interprets it as
“a legitimation statute,” we see no reason to construe
it to be such. See Pfeifer, 41 F.2d at 467–68 (similarly
declining to view a Kansas statute that granted rights

24a
of inheritance to a child as providing for the child’s
legitimation).
Mr. Schreiber also says that, in Aslin v. Seamon,
587 P.2d 875 (Kan. 1978), the Kansas Supreme Court
“recognized” that adopted children are also
legitimated children when the court said that
“[s]everal different methods of legitimation” existed in
Kansas at that time, including “adoption.” Aplt.’s
Opening Br. at 25 (alteration in original) (quoting
Aslin, 587 P.2d at 877). But we are not persuaded by
Mr. Schreiber’s reliance on Aslin to support his
contention that his adoption of Hyebin effected his
legitimation of her under Kansas law. First of all, the
Kansas statute that the Kansas Supreme Court
considered in Aslin to guide its analysis has not been
in effect for approximately thirty years. See Aslin, 587
P.2d at 877 (citing Kan. Stat. § 59-2103
(1978) (repealed 1990))). Furthermore, Mr. Schreiber
does not explain why we should interpret Aslin’s bare
statement as establishing that all adoptions under
Kansas law are legitimations, including (novelly) a
parent’s adoption of a child who is not his biological
child. Indeed, even if Aslin’s language could be read as
addressing such a novel circumstance, it would likely
be only dictum because Aslin involved the traditional
question of whether a father had legitimated his
biological children. See 587 P.2d at 877. Therefore,
Mr. Schreiber’s reliance on Aslin does not
persuasively advance his cause.
Mr. Schreiber calls our attention last to the
Fourth Circuit’s decision in Ojo v. Lynch, 813 F.3d 533
(2016), where the court held that a child adopted at
the age of seventeen should be considered adopted at
the age of fifteen for purposes of the Act because,
thirteen years and nine months after his adoption, his
adoptive father secured “a nunc pro tunc order from

25a
the . . . state court specifying that [his] adoption
became effective before [the child] turned sixteen.” Id.
at 536. The court explained that because “state courts
exercise full authority over the judicial act of
adoption,” “a child is ‘adopted’ for purposes of
§ 1101(b)(1)(E)(i) on the date that a state court rules
the adoption effective, without regard to the date on
which the act of adoption occurred.” Id. at 539–40.
Putting aside any questions concerning the
wisdom of Ojo’s holding, 4 we believe that the case
stands at most for the proposition that the Act defers
to state law in determining when a child is “adopted”
for purposes of 8 U.S.C. § 1101(b)(1)(E)(i). See 813
F.3d at 541. The issue here, however, is different. We
are not concerned with whether the Act similarly
defers to state law in deciding when a child was
“legitimated” for purposes of § 1101(b)(1)(C)—viz., the
timing of the act of legitimation. Rather, we are
concerned with the conceptual meaning of
legitimation itself. More specifically, our focus is on
whether the Act employs the ordinary meaning of the
term legitimation or instead leaves it to the states to
redefine the term’s meaning in novel ways, i.e., ways
that do not accord with its ordinary meaning. Because
Ojo did not involve a state law that had redefined the
very concept of adoption itself, it does not
See Roman Catholic Archdiocese of San Juan v. Acevedo
Feliciano, --- U.S. ---, 140 S. Ct. 696, 701 (2020) (per curiam)
(explaining that a nunc pro tunc order “presupposes a decree
allowed, or ordered, but not entered, through inadvertence of the
court,” and that such orders “are not some Orwellian vehicle for
revisionist history—creating ‘facts’ that never occurred in fact”
(first quoting Cuebas y Arredondo v. Cuebas y Arredondo, 223
U.S. 376, 390 (1912); then quoting United States v. Gillespie, 666
F. Supp. 1137, 1139 (N.D. Ill. 1987))); id. (“Put plainly, [a] court
‘cannot make the record what it is not.’” (quoting Missouri v.
Jenkins, 495 U.S. 33, 49 (1990))).
4

26a
meaningfully inform our inquiry. More specifically,
the decision does not support Mr. Schreiber’s position
that the Act requires the federal government to accept
as a legitimation what Mr. Schreiber contends is
Kansas’s view of conduct that falls within that term’s
ambit—specifically, a parent’s adoption of a nonbiologically-related child.
2
Mr. Schreiber contends next that we should
interpret the Act as deferring to state laws that
permit parents to legitimate any child—and not just
their biological children—because doing so furthers
the congressional intent “of keeping families
together.” Aplt.’s Opening Br. at 23 (quoting Cantwell
v. Holder, 995 F. Supp. 2d 316, 321 (S.D.N.Y. 2014));
see id. at 25 (“An interpretation of § 1101(b)(1)(C) that
looks to state law to determine who is ‘legitimated’
and that incorporates states’ efforts to keep pace with
changing societal norms [by expanding whom a
parent may legitimate] aligns with Congress’s efforts
to keep families together.”); id. at 32 (asserting that
any construction of the term “legitimated” that
“conflicts with Congress’s aim of maintaining and
fostering
unity
of
immigrant
families”
is
“unreasonable”).
The great difficulty with Mr. Schreiber’s
interpretative position, however, is that—as the
government correctly observes—there is “no
indication” in the Act that Congress wanted to pursue
the unity of families “at all costs.” Aplee.’s Resp. Br.
at 28. The Supreme Court, indeed, has repeatedly
recognized that Congress has intentionally denied the
status of “child” under the Act to some non-citizen
children “who share strong family ties” with their
citizen parents. Hector, 479 U.S. at 89 (quoting Fiallo
v. Bell, 430 U.S. 787, 798 (1977)). Because “Congress

27a
has been actively engaged in delineating how broad it
wishes the definition of ‘child’ to be,” “we are
especially bound to pay heed to the plain mandate of
the words Congress has chosen.” Id. at 90 n.6. And,
as explained supra, we hold that it is implicit in the
very concept of legitimation that a parent may
legitimate only his biological children.
Although a parent may make a child who is not
his biological offspring his lawful child with full filial
rights, the process of doing so cannot properly be
called “legitimation.” See, e.g., Blythe, 31 P. at 916
(“Adoption, properly considered, refers to persons who
are strangers in blood; legitimation, to persons where
the blood relation exists.”); Adoption, BLACK’S
(“Adoption is distinguishable from legitimation . . . .
Adoption usu[ally] refers to an act between persons
unrelated by blood; legitimation refers to an act
between persons related by blood.”); cf. De Sylva, 351
U.S. at 580–81 (observing that although federal law
turns to state law to define who are an author’s
“children” for copyright purposes, “[t]his does not
mean that a State would be entitled to use the word
‘children’ in a way entirely strange to those familiar
with its ordinary usage” because state law will control
only “to the extent [that the state law uses]
permissible variations in the ordinary concept of
‘children’”).
Accordingly, we conclude that any “congressional
intent” to keep families together is “not a license to
ignore the plain meaning of [this] specific statutory
provision.” United States v. Lorenzetti, 467 U.S. 167,
178 (1984); accord United States v. Husted, 545 F.3d
1240, 1245 (10th Cir. 2008) (stating that we will not
read “the broad purposes” of a statute “to contradict
[its] plain meaning”).

28a
3
Mr. Schreiber finally contends that the Act’s
language demonstrates that a legitimating parent
need not be the child’s biological parent because
8 U.S.C. § 1101(b)(1)(C) speaks in terms of fathers
and legitimating parents, whereas nearby subsections
speak instead about natural fathers and natural
parents. See 8 U.S.C. § 1101(b)(1)(D)–(E). He points
out in particular that § 1101(b)(1)(D) says that “a
child born out of wedlock” can qualify as a “child” for
purposes of the Act based on his “relationship” with
his “natural mother” or his “bona fide parent-child
relationship” with his “natural father.”
Id.
§ 1101(b)(1)(D). He also notes that § 1101 (b)(1)(E)
provides that if an adopted child qualifies as a “child”
under the Act, the child’s “natural parent” shall not
receive “any right, privilege, or status under [the
Act],” and the child’s “natural sibling” may also
qualify as a “child” under the Act. Id. § 1101(b)(1)(E).
He concludes that because Congress specified “a
biological connection” in subsections (D) and (E) by
employing the adjective “natural,” but did not include
the word “natural” in subsection (C), it is “quite clear”
that Congress did not intend that only a child’s
natural parent may be his legitimating parent. See
Aplt.’s Opening Br. at 28–29. We disagree.
Congress needed to specify in subsection (D) that
the mother and the father at issue were the “natural”
parents of the “child born out of wedlock” because the
child could, of course, have a “relationship” with an
adoptive mother and a “bona fide parent-child
relationship” with an adoptive father who lack any
biological connection with her. Congress similarly
needed to specify in subsection (E) that it was
referring to the “natural parent” and the “natural
sibling” of the “adopted” child to ensure that no one

29a
confused them with the child’s adoptive parents and
siblings through adoption. Congress, in contrast, did
not need to specify in subsection (C) that only a child’s
“natural” parent may be his “legitimating” parent
because, as explained, that biological connection is
already implicit in the concept of legitimation. See
Pfeifer, 41 F.2d at 466 (stating that the “civil and
social status” of a legitimated child “becomes that of a
lawful child of the natural father” (emphasis added)).
We thus discern no reason to conclude from the
absence of the adjective “natural” in subsection (C)
that a “legitimating” parent need not be the natural
(i.e., biological) parent of the “legitimated” child. The
absence of that adjective is fully explained by the fact
that including it would have been redundant.
***
In sum, we reject Mr. Schreiber’s arguments that
the Act is best construed as deferring to state law in
determining whom a parent may legitimate. 5 We
affirm the BIA’s construction of the Act’s term
“legitimated” because its plain meaning requires the
legitimated child to be the biological offspring of the
legitimating parent. 6
Mr. Schreiber also argues in support of his position that a
number of federal statutes turn to state law to determine the
scope of the rights they provide. See Aplt.’s Opening Br. at 20–
23. We need not specifically address those arguments, however,
because they are irrelevant, given our stated rationale that the
Act’s text is unambiguous in its use of the term “legitimated,”
and it necessarily follows from this fact that the Act does not
contemplate deferring to state law regarding the question of
whom a parent may legitimate.
6
The Adoptee Rights Campaign, appearing before us as amicus
curiae, contends that we should hold that Hyebin is Mr.
Schreiber’s legitimated child for purposes of the Act because they
have a bona fide parent-child relationship, and she has the same
5

30a
III
Mr. Schreiber also contests the district court’s
refusal to entertain his late-blooming constitutional
challenge to the BIA’s interpretation of the statutory
term “legitimated.” The district court refused to hear
the challenge because he had failed to raise it before
the BIA. Mr. Schreiber maintains that the district
court erred because he in fact had raised the challenge
before the BIA, and, in any event, under the Supreme
Court’s decision in Darby v. Cisneros (referenced
supra), he did not need to exhaust the challenge before
the BIA because his appeal from the USCIS’s decision
filial rights as his biological children would. But the Campaign,
like Mr. Schreiber, fails to establish that a normal speaker of the
English language who knows the meaning of the term
“legitimated” would say that an adopted child with full filial
rights is thereby the adoptive parent’s legitimated child. In a
similar vein, the Children and Family Law Center of the
Washburn University School of Law, appearing before us as
amicus curiae, maintains that adoption is a means of
legitimation in Kansas because the concepts of paternity and
parentage have replaced the concept of legitimacy there. To be
sure, whereas “[u]nder the common law an illegitimate child was
held to be filius nullius,” Pfeifer, 41 F.2d at 465, Kansas law
today imposes on a child’s “biological” parents, “regardless of
the[ir] marital status,” a “‘parent and child relationship’ . . .
incident to which the law confers or imposes rights, privileges,
duties and obligations.” Kan. Stat. §§ 23-2205, 23-2206. It, thus,
appears that Kansas may have eliminated the legal concept of
illegitimacy from its family law. But whether Kansas has
eliminated the concept of illegitimacy from its law is distinct
from—and perhaps irrelevant to—the separate issue of whether
Kansas legally considers every child adopted under its law as the
legitimated, as opposed to the legal, child of the adoptive parent.
The Center, like Mr. Schreiber, fails to produce any law
establishing that Kansas views its adopted children as the
adoptive parents’ legitimated children. And, in light of our
holding, we have no occasion to definitively opine on the matter.

31a
to the BIA was optional. We disagree on both counts
and uphold the district court’s order.
A
We consider first whether the district court erred
in determining that Mr. Schreiber “did not present his
current [constitutional] arguments to the agency.”
Aplt.’s App. at 31. It is undisputed that Mr. Schreiber
did not present them to the USCIS. See Aplt.’s
Opening Br. at 40 (conceding that Mr. Schreiber “did
not advance his constitutional claim in front of
USCIS”). And the only constitutional challenge he
raised before the BIA was that, if his alleged Kansas
legitimation of Hyebin did not qualify as a
legitimation under the Act, he would be deprived of
“an essential part of the Liberty protected by the Fifth
Amendment”
(i.e.,
presumably,
the
Fifth
Amendment’s Due Process Clause), and Hyebin would
be denied equal protection. Aplt.’s App. at 92 (quoting
United States v. Windsor, 570 U.S. 744, 768 (2013)).
He did not argue that he, himself, would be denied
equal protection, and he did not indicate that either
he or Hyebin would be denied their Fifth Amendment
rights on account of their respective genders.
Before the district court, however, Mr. Schreiber
argued that the BIA’s interpretation of the statutory
term “legitimated” resulted in “disparate treatment
based on gender” in violation of the equal-protection
component of the Fifth Amendment’s Due Process
Clause. Id. at 251. He maintained in particular that
the BIA’s interpretation had this effect because it did
not recognize that he could legitimate his nonbiological daughter, whereas immigration authorities
had said—through a written policy—that gestational
mothers may legitimate their non-genetically-related
children, to whom they gave birth after using assisted
reproductive technology. Id. at 251–52. This was the

32a
first time he had articulated a gender-discrimination
argument and suggested that his own equalprotection rights were at stake. Like the district court,
we conclude that Mr. Schreiber did not exhaust this
particular challenge before the BIA, and the district
court thus properly declined to consider it. See, e.g.,
Garcia-Carbajal v. Holder, 625 F.3d 1233, 1237
(10th Cir. 2010) (holding that to exhaust a claim
before the BIA a petitioner “must present the same
specific legal theory to the BIA before he or she may
advance it in court”).
However, Mr. Schreiber maintains that, if he did
not present this constitutional challenge to the BIA,
the Washburn Law Clinic—which appeared before the
BIA as an amicus curiae—raised it. See Aplt.’s
Opening Br. at 36–37. Mr. Schreiber cites no
authority, however, even suggesting—much less
establishing—that petitioners may properly claim to
have exhausted arguments before the BIA that were
in fact only presented to the agency by amicus curiae
(i.e., another litigant). Yet, even assuming arguendo
that this is so, the Washburn Law Clinic did not raise
any
gender-discrimination,
equal-protection
challenge to the BIA’s interpretation of the Act. The
Clinic, instead, asserted that it would violate
Mr. Schreiber’s “right to equal protection” if, “when
Kansas treats parents who derive paternity by
adoption and those who derive paternity by biology
the same, the federal government [were to]
distinguish between the two in such a way that merely
perpetuates the odious regime of discrimination
against ‘illegitimate’ children.” Aplt.’s App. at 145.
The district court recognized that this equalprotection argument did not allege gender
discrimination, but rather discrimination against
“parentage established by adoption.” Id. at 11 n.4.

33a
Mr. Schreiber quotes from the district court’s
recitation of the Clinic’s argument to the BIA without
contending that the district court misinterpreted it.
See Aplt.’s Opening Br. at 36. We, therefore, conclude
that the Clinic did not raise a gender-discrimination,
equal-protection argument before the BIA. Therefore,
even if the Clinic could exhaust such an argument for
the benefit of Mr. Schreiber, it did not do so.
In sum, we have determined that neither
Mr. Schreiber, nor the Washburn Law Clinic as
amicus curiae, presented to the BIA a genderdiscrimination, equal-protection challenge to the
BIA’s interpretation of the Act.
B
Mr. Schreiber maintains nonetheless that he did
not have to exhaust this particular constitutional,
equal-protection challenge to the BIA’s interpretation
of the Act. He argues first that presenting the
challenge would have been “futile” because the BIA
held “that it lacked jurisdiction to consider the
constitutional claims [that were] raised.” Aplt.’s
Opening Br. at 39. He contends next that under Darby
v. Cisneros, he did not have to present the challenge
to the BIA because his appeal to the BIA from the
USCIS’s decision was optional. We reject both
arguments and uphold the district court’s refusal to
consider his unexhausted challenge.
1
Mr. Schreiber argues first that he did not have to
exhaust his constitutional, equal-protection challenge
because the BIA’s response to the constitutional
challenges that were raised showed that any attempt
to exhaust this one would have been futile. To be sure,
the BIA ruled in this case that “[t]o the extent that
constitutional arguments have been raised, the Board

34a
does not have jurisdiction to rule on the
constitutionality of laws it administers.” Aplt’s App.
at 129 (citing Matter of Fuentes-Campos, 21 I. & N.
Dec. at 912). But we do not construe this language as
indicating that the BIA was categorically precluded
from considering constitutional challenges that
implicate its interpretation of the Act. See
Theodoropoulos v. INS, 358 F.3d 162, 172 (2d Cir.
2002) (citing Adelphia Commc ‘ns Corp. v. FCC, for
the proposition that, “[a]lthough a constitutional
attack upon a statute need not be raised before [an]
agency, a constitutional attack upon an agency’s
interpretation of a statute is subject to the exhaustion
requirement,” 88 F.3d 1250, 1256 (D.C. Cir. 1996)
(second alteration in original)); see also Alina Das,
Administrative Constitutionalism in Immigration
Law, 98 B.U. L. REV. 485, 512, 514 (2018) (noting
that one “area in which the BIA has recognized its
ability to apply constitutional principles to
substantive immigration law is the BIA’s own
interpretations” and that this “suggests” that there
may be space for assessment of the merits of such
principles “in the realm of ambiguous statutory
interpretation”); cf. In re Silva, 16 I. & N. Dec. 26, 31
& n.3 (1976) (Appleman, concurring) (noting an
instance where the BIA’s statutory interpretation
“had attempted to alleviate the lack of equal
treatment evident in the statute” but, in that
instance, it “could go no further without flouting the
statute” and, because “it has no power to declare
legislation unconstitutional,” therefore “[n]o further
‘interpretation’ was possible”). And it is the BIA’s
interpretation of § 1101(b)(1)(C) that is at issue
here—not the constitutionality of the statute itself.
Yet, Mr. Schreiber failed to present to the BIA his
gender-discrimination reasons for reconsidering its

35a
interpretation of the Act. We, therefore, do not know
whether—when presented with such an argument—
the BIA would have reconsidered its precedent in
Bueno, which set forth the BIA’s interpretation of the
Act’s term “legitimated.” See Grullon v. Mukasey, 509
F.3d 107, 113 (2d Cir. 2007) (noting that the noncitizen’s “futility argument fails because he cannot
demonstrate that the BIA was unable to provide the
relief that he sought,” in that the agency “could have
reconsidered” en banc its adverse precedent “or it
could have certified the question to the Attorney
General”); cf. Aplt.’s App. at 129 (the BIA stating in
the instant case that it was “not persuaded” that the
“amicus curiae’s arguments regarding Kansas law”
were sufficient to “overcome the controlling precedent
of Matter of Bueno”).
Accordingly, Mr. Schreiber has not shown that it
would have been futile to exhaust his current
constitutional challenge before the BIA. See Harline
v. DEA, 148 F.3d 1199, 1203 (10th Cir. 1998) (holding
that a plaintiff challenging an administrative action
“bears the burden of establishing” that “exhaustion
would be futile”).
2
Mr. Schreiber also asserts that, under Darby v.
Cisneros, he did not have to present his constitutional
challenge to the BIA because his appeal from the
USCIS’s decision to the BIA was optional. See Aplt.’s
Opening Br. at 39–42. In Darby, the Supreme Court
considered whether a federal court could decline to
review final agency action on the ground that the
plaintiff ostensibly had failed to exhaust his
administrative remedies by failing to take an optional
administrative appeal of the otherwise final action
before seeking judicial review.

36a
The Supreme Court there construed § 10(c) of the
APA—which is the section defining when an agency
action becomes reviewable under the APA—as
providing that “[w]hen an aggrieved party has
exhausted all administrative remedies expressly
prescribed by statute or agency rule, the agency action
is ‘final for the purposes of this section’ and therefore
‘subject to judicial review.’” Darby, 509 U.S. at 146
(quoting 5 U.S.C. § 704). 7 The Court stated that,
because “[s]ection 10(c) explicitly requires exhaustion
of all intra-agency appeals mandated either by statute
or by agency rule,” it would be “inconsistent with the
plain language of § 10(c)” for courts to decline to
review a final agency action on the basis that the
plaintiff had failed “to exhaust optional appeals as
well.” Id. at 147. The Court then concluded that,
“where the APA applies, an appeal to ‘superior agency
authority’ is a prerequisite to judicial review only
when expressly required by statute or when an agency
rule requires appeal before review . . . . Courts are not
free to impose an exhaustion requirement as a rule of
judicial administration where the agency action has
already become ‘final’ under § 10(c).” Id. at 154
(quoting 5 U.S.C. § 704).
Mr. Schreiber asserts—and the government does
not contest—that the law did not require him to
appeal to the BIA from the USCIS’s adverse
determination on his I-130 petition before he properly
5 U.S.C. § 704 provides, in relevant part, that “final agency
action” is “subject to judicial review,” and that, “[e]xcept as
otherwise expressly required by statute, agency action otherwise
final is final for purposes of this section whether or not there has
been presented or determined an application . . . for any form of
reconsideration, or, unless the agency otherwise requires by rule
and provides that the action meanwhile is inoperative, for an
appeal to superior agency authority.”
7

37a
could seek judicial review. Aplt.’s Opening Br. at 40
(“When USCIS denies a petition . . . , an appeal to the
BIA is discretionary, taken, or not, at the opinion of
the petitioner.”); Aplee.’s Resp. Br. at 44 (“It is
undisputed that no statute or regulation required
Schreiber to appeal USCIS’s denial of his Form I-130
to the BIA.”). We, therefore, assume without deciding
that the USCIS’s rejection of Mr. Schreiber’s petition
on behalf of Hyebin constituted final agency action
and that he did not have to appeal its ruling to the
BIA. It does not necessarily follow from that premise,
however, that Mr. Schreiber did not have to exhaust
his gender-discrimination claim before the BIA, once
he actually pursued an appeal there.
Darby only determined that a court may not
decline to review final agency action under the APA
on the ground that the plaintiff had the opportunity
to pursue an optional, additional level of
administrative review but did not do so. 509 U.S. at
146–47, 154. Recall that the Court based its holding
on its interpretation of § 10(c) of the APA, Id. at 146–
47, which provides that “final agency action . . . [is]
subject to judicial review” and that “agency action
otherwise final is final for purposes of this section”
once the aggrieved party has exhausted all
administrative remedies “expressly required” by
statute or rule, 5 U.S.C. § 704.
However, nothing in the APA’s text—nor in
Darby’s interpretation of it—indicates that a federal
court may not require a party to have exhausted his
administrative remedies (i.e., his arguments for relief)
in an optional administrative appeal (here, to the
BIA), if he actually elected to undertake such an

38a
appeal. 8 More specifically, as construed by Darby,
§ 10(c) of the APA provides only that the district court
could not decline to review the USCIS’s otherwise
final agency action because Mr. Schreiber did not
exhaust an optional appeal to the BIA. Darby, 509
U.S. at 146–47, 154. But § 10(c) does not suggest—
and Darby does not hold—that a district court may not
require a petitioner, like Mr. Schreiber, to exhaust his
claims before the BIA where, as here, “he decided to
This limitation on the reach of Darby’s holding is a natural and
logical function of the factual circumstances that the Supreme
Court faced there: the litigant there did not seek to avail himself
of the optional administrative appeal. See 509 U.S. at 142. And
we contend that it is mistaken and misguided to read Darby as
speaking to the quite distinct situation, which is present here,
where litigants actually have elected to pursue the optional
agency appeal—thereby, requesting that the agency consider
and opine on their request for relief. And seemingly the best
authority that Mr. Schreiber and the Dissent can marshal for a
contrary view is a thin reed indeed—the per curiam, unpublished
decision of a Fifth Circuit panel in AAA Bonding Agency, Inc. v.
U.S. Department of Homeland Security, 447 F. App’x. 603 (5th
Cir. 2011) (per curiam) (unpublished). Putting aside the obvious
fact that AAA Bonding is not even binding on the Fifth Circuit—
let alone in our own circuit—its reasoning is unpersuasive
because the panel does not even attempt to grapple with the
distinction noted above, between litigants who completely forgo
their optional appeal and litigants who pursue their optional
appeal, thereby placing their request for relief before the agency.
Rather, the AAA Bonding panel just perfunctorily decides that
those two sets of litigants are, in effect, similarly situated and
that Darby applies to both of them. Cf. AAA Bonding, 447 F.
App’x at 612 (noting that the plaintiffs may present a defense in
federal court that they allegedly did not adequately raise in the
optional administrative appeal that they did pursue “just as they
have raised the [same] defense [in federal court] . . . [where] the
optional administrative appeals were not taken” (emphasis
added)). In sum, given the perfunctory state of its analysis
concerning Darby, AAA Bonding is unpersuasive, and we decline
to cast our lot with it.
8

39a
appeal to the BIA anyway, and then mount[ed] an
APA challenge to the BIA’s decision in district court.”
Aplee.’s Resp. Br. at 44 (emphases added). In sum,
neither the APA’s text nor Darby precluded the
district court from requiring Mr. Schreiber to exhaust
his claims before the BIA—which, we assume, was an
optional level of agency review in this case—once he
elected to pursue a BIA appeal.
Stated otherwise, Darby would have barred the
district court from declining to review the USCIS’s
(allegedly) final agency action on the ground that
there was an optional, additional level of agency
review in the BIA that Mr. Schreiber could have, but
did not, take. But that is not what the district court
did here. The district court, instead, declined
Mr. Schreiber’s invitation to overturn the BIA’s new
and distinct final agency action based on “the merits
of arguments not presented to [it].” See Aplt.’s App. at
32 (emphasis added) (citing Garcia-Carbajal, 625 F.3d
at 1237). As such, the district court was applying the
“fundamental principle of administrative law that an
agency must have the opportunity to rule on a
challenger’s arguments before the challenger may
bring those arguments to court.” Garcia-Carbajal,
625 F.3d at 1237. Because this is not a situation where
the district court faulted a petitioner for failing to take
an optional level of agency review, but rather for
failing to exhaust his arguments before the final level
of agency review that he in fact elected to pursue,
Darby is distinguishable, and we discern nothing in
that case nor in the APA’s text that would indicate
that the district court erred here.
As the D.C. Circuit correctly observed in CSX
Transp., Inc. v. Surface Transp. Bd., 584 F.3d 1076
(D.C. Cir. 2009), “Darby stands for the proposition
that absent a statutory or regulatory requirement to

40a
the contrary, courts have no authority to require
petitioners seeking judicial review of a final agency
action to further exhaust administrative procedures.”
Id. at 1079 (emphasis added). The effect of the district
court’s decision here was not to require Mr. Schreiber
“to further exhaust administrative procedures,” Id.
(emphasis added); instead, it simply held him
accountable for not having exhausted his claims in the
administrative proceeding that he freely availed
himself of—the BIA proceeding that resulted in the
adverse ruling that he now challenges in court. And in
doing so, the district court adhered to the
fundamental principle of administrative law that
instructs courts not to “usurp[] the agency’s function
[by] set[ting] aside the administrative determination
upon a ground not theretofore presented and
depriv[ing] the [agency] of an opportunity to consider
the matter, make its ruling, and state the reasons for
its action.” Garcia-Carbajal, 625 F.3d at 1237 (final
alteration in original) (quoting Unemployment Comp.
Comm ‘n of Alaska v. Aragon, 329 U.S. 143, 155
(1946)).
Lastly, Mr. Schreiber contends that the district
court should not have required him to exhaust his
constitutional challenge before the BIA because doing
so will “discourage discretionary appeals” by creating
“[an] incentive for the subject of [an] adverse
[administrative] decision to skip the discretionary
appeals process entirely to secure more time to
consider possible claims” to present to the district
court. Aplt.’s Reply Br. at 23. We are unpersuaded
that this practical consideration is sufficiently
weighty to overcome, as a matter of law, the
“fundamental principle . . . that an agency must have
the opportunity to rule on a challenger’s arguments
before the challenger may bring those arguments to

41a
court.” Garcia-Carbajal, 625 F.3d at 1237. We believe
that, despite this principle of exhaustion, petitioners
will continue to pursue optional administrative
appeals in order to receive the benefit “of whatever
expertise the agency may possess.” Id.
***
In sum, we hold that the district court violated
neither the letter nor the spirit of the Supreme Court’s
holding in Darby by requiring Mr. Schreiber to
exhaust before the BIA his constitutional, genderdiscrimination challenge to the BIA’s interpretation of
the Act.
IV
In conclusion, we agree with the district court’s
determination that the BIA properly ruled that
Hyebin
cannot
qualify
as
Mr. Schreiber’s
“legitimated” child for purposes of 8 U.S.C. § 1
01(b)(1)(C) because she is not his biological child. We
hold that, under the plain meaning of the word
“legitimated,” as employed in the Act, a parent may
legitimate only his biological offspring. We also hold
that the district court did not violate the Supreme
Court’s holding in Darby v. Cisneros, when it refused
to entertain Mr. Schreiber’s gender-discrimination
challenge to the BIA’s interpretation of the Act
because he had failed to exhaust this challenge in his
optional appeal to the BIA from the ruling of USCIS.
In sum, for the foregoing reasons, we AFFIRM the
district court’s judgment.

42a
18-3215, Schreiber v. Cuccinelli
TYMKOVICH, C.J., concurring in the judgment.
I join Part III of Judge Holmes’s opinion affirming
the district court’s refusal to entertain Schreiber’s
constitutional challenge to the BIA’s interpretation of
the term “legitimated” in 8 U.S.C. § 1101(b)(1)(C). But
I disagree with Judge Holmes’s interpretation of that
term in Part II—an interpretation that in the final
analysis is unnecessary in light of Schreiber’s failure
to establish that Kansas law considers a father’s
adoption of a child to be a form of legitimation,
regardless of whether the adopted child is biologically
related.
In construing the phrase “legitimated under the
law . . . of the father’s residence or domicile,” 8 U.S.C.
§ 1101(b)(1)(C), Judge Holmes notes “[t]he word
‘legitimated’ when used to describe a ‘child’ has long
meant something very specific in the law.” Maj. Op.
at 13. Relying upon our discussion in Pfeifer v. Wright,
41 F.2d 464 (10th Cir. 1930), Judge Holmes explains
that at common law, legitimation involved changing
the legal status of a child born out of wedlock to one
invested with all the rights of a “lawful child of the
natural father,” and “the child and father thereafter
stand in their relations to each other as though the
birth had been during wedlock.” Maj. Op. at 13–14
(quoting Pfeifer, 41 F.2d at 466). Judge Holmes’s
opinion then conceptualizes the meaning of
“legitimated” under two axes—one that defines who
can be legitimated (only biological children, pursuant
to the common law understanding of legitimation set
forth in Pfeifer), and the other that defines how a child
is legitimated (a state law process). The statutory
language of § 1101(b)(1)(C) does not support this
approach to the word “legitimated,” and, in any case,

43a
Judge Holmes’s analysis is unnecessarily broad in
light of Schreiber’s failure to establish the underlying
premise of his argument—namely, that an adopted
non-biological child is “legitimated” under Kansas
law.
The opinion’s focus on the meaning of the word
“legitimated” in the statute does not adequately take
into account that the word is modified by the phrase
“under the law . . . of the father’s residence or
domicile.” As the Board of Immigration Appeals noted
in Matter of Cross:
By tying the meaning of “legitimation” to the
requirements of the law of the child’s
residence or domicile (or that of the father),
Congress anticipated that the meaning of the
term would vary depending upon (1) the law
in the country or State of residence or domicile
and
(2) the
child’s
date
of
birth.
“Legitimation” is thus an evolving, rather
than a fixed, concept.
26 I &N. Dec. 485, 492 n.8 (BIA 2015). Judge Holmes
dismisses Cross, arguing that “[n]othing in Cross
suggests that Congress intended the Act to adopt
state-law ideas about whom a parent may legitimate.”
Maj. Op. at 23 (emphasis in original).
But the point here, and that the BIA made in
Cross, is the statute itself indicates Congress’s intent
to adopt state-law definitions of legitimation.
Section 1101(b)(1)(C)
modifies
the
term
“legitimated”—a term otherwise undefined in the
statute—with the phrase, “under the law . . . of the
father’s residence or domicile.” Judge Holmes’s
approach requires us to either sever the word
“legitimated” from the modifying phrase that
immediately follows, or to assume the modifying

44a
phrase applies only to the process of becoming
legitimated and not to the meaning of the word
“legitimated” itself The latter approach might have
been defensible if Congress had elsewhere in the
statute defined “legitimated” consistent with Pfeifer,
but it did not do so. And even assuming Cross stands
for the proposition that § 1101(b)(1)(C) may provide
for legitimation of a non-biological child in those cases
where the applicable state statute expands the
definition of legitimation to include non-biological
children, Schreiber still has a problem.
The problem is that this is not one of those cases.
I agree with Judge Holmes that adoption under
Kansas law does not, as Schreiber contends,
effectuate a parent’s legitimation of a non-biological
child. See Maj. Op. 26–28. Therefore, the premise of
Schreiber’s argument—that Kansas law allows for the
legitimation of a non-biological child—is incorrect. As
Judge Holmes notes, the Kansas adoption statute at
issue here, Kan. Stat. § 59-2118(b), does not provide
textual support for a legislative intention to treat a
child adopted under the statute as “legitimated.”
Schreiber has not pointed to any Kansas case that
interprets § 59-2118 as a legitimation statute, nor
have we found any. Schreiber does cite a Kansas
Supreme Court case, Aslin v. Seamon, 587 P.2d 875
(Kan. 1978), where the court said there are several
different methods of legitimation, including adoption,
Id. at 877. But Aslin involved whether a father had
legitimated his biological children, under a Kansas
statute that was repealed 30 years ago. I agree with
Judge Holmes that Aslin is, at best, dicta. Without
any explicit indication that all Kansas adoptions are
also legitimations, this is not a case of a child being
“legitimated under the law . . . of the father’s

45a
residence or domicile” within the meaning of 8 U.S.C.
§ 1108((b)(1)(C).
Because the premise of Schreiber’s argument is
incorrect, Judge Holmes’s analysis—which seems to
preclude any adopted non-biological child from ever
being considered legitimated under § 1101(b)(1)(C),
regardless of the relevant state statute—is
unnecessarily sweeping. I would leave open the
possibility that in a future case, an adopted child not
biologically related to the adopting parent could be
considered “legitimated” under § 1101(b)(1)(C) if the
relevant state statute so provided. 1 I therefore concur
in Section II of Judge Holmes’s opinion only as to the
result.

Of course, as Judge Holmes notes, even where a federal statute
defers to state law definitions, the Supreme Court cautions that
a state is not entitled to use a word “in a way entirely strange to
those familiar with its ordinary usage.” De Sylva v. Ballentine,
351 U.S. 570, 581 (1956). I would reserve for another day the
question of whether a state statute that expressly equates
“legitimated” with the adoption of a non-biological child would
violate that principle.
1

46a
18-3215, Schreiber v. Cuccinelli
BALDOCK, Circuit Judge, concurring in part and
dissenting in part:
Today, the Court reaches two conclusions. First,
the Court holds that the term “legitimated,” as used
in 8 U.S.C. § 1101(b)(1)(C), unambiguously requires a
biological connection between the legitimating parent
and legitimated child. In so holding, the Court reads
into the statute a requirement that simply is not
present. Nevertheless, because the term “legitimated”
is reasonably susceptible to multiple interpretations,
I would defer to the agency’s interpretation of the
statute under Chevron. I therefore write separately to
concur in this part of the Court’s judgment.
Second, the Court concludes that Mr. Schreiber
waived his gender discrimination claim because he
did not present the claim to the BIA in his optional
interagency appeal. But the Supreme Court has
advised us that we cannot require plaintiffs to
exhaust discretionary administrative remedies.
Because the Court’s opinion has the effect of imposing
additional exhaustion requirements not required by
the relevant statute or agency rule, I dissent to this
part of the Court’s judgment.
A. Meaning of Legitimated under 8 U.S.C.
§ 1101(b)(1)(C)
I turn first to the Court’s conclusion that 8 U.S.C.
§ 1101(b)(1)(C)
unambiguously
requires
a
“legitimated child” to have a biological relationship
with his or her legitimating parent. When reviewing
an agency’s interpretation of a statute it administers,
we apply the two-step review outlined by the Supreme
Court in Chevron U.S.A., Inc. v. Natural Resource
Defense Council, 467 U.S. 837 (1984). See Am. Wild

47a
Horse Pres. Campaign v. Jewell, 847 F.3d 1174, 1187
(10th Cir. 2016). Under the first step, we ask “whether
the statute unambiguously addresses ‘the precise
question at issue.’” New Mexico v. Dep’t of Interior,
854 F.3d 1207, 1221 (10th Cir. 2017) (quoting
Chevron, 467 U.S. at 842). “If the intent of Congress is
clear, that is the end of the matter; for the court, as
well as the agency, must give effect to the
unambiguously expressed intent of Congress.”
Chevron, 467 U.S. at 842–43.
Therefore, under Chevron, the Court must first
determine whether 8 U.S.C. § 1101(b)(1)(C) is
ambiguous. Section 1101(b)(1)(C) defines a “child” of a
United States citizen as:
a child legitimated under the law of the child’s
residence or domicile, or under the law of the
father’s residence or domicile, whether in or
outside the United States, if such legitimation
takes place before the child reaches the age of
eighteen years and the child is in the legal
custody of the legitimating parent or parents
at the time of such legitimation
8 U.S.C. § 1101(b)(1)(C). In no fewer than twenty
pages, the Court holds the term “legitimated” is
unambiguous. The Court isolates the word
“legitimated” from its context and relies on the
purportedly “ordinary meaning” of the term to reach
this conclusion. But if the ordinary meaning of
“legitimated” was so clear, why would we need more
than a few pages to explain how so?
The Court spends the better part of its opinion
explaining how the word “legitimated” necessarily
implies a biological connection. For example, the
Court emphasizes the historical meaning of
“legitimated” as defined by our caselaw. Pointing to

48a
Pfeifer v. Wright, the Court explains that a
legitimated child is one that becomes the “lawful child
of the natural father.” 41 F.2d 464, 466 (10th Cir.
1930) (emphasis added). Similarly, the Court uses
dictionary definitions of the term “legitimation” (or
derivatives thereof) to explain how legitimation
requires a biological connection between the parent
and child. While the Court fairly characterizes our
caselaw and the relevant definitions of “legitimation,”
I remain unpersuaded that “legitimated” as used in
§ 1101(b)(1)(C) can only be understood one way. That
is, the Court clearly explains how one reasonable
interpretation of the term “legitimated” requires a
biological relationship but fails to address why this is
the only reasonable interpretation of the term. See
Nat’l Credit Union Admin. Bd. v. Nomura Home
Equity Loan, Inc., 764 F.3d 1199, 1226 (10th Cir.
2014) (explaining that a statute is ambiguous if it can
reasonably be interpreted in more than one way).
Based largely on the statute’s plain language and
structure, the phrase “a child legitimated” under the
law of the child’s or father’s domicile is ambiguous.
See Am. Fed’n of Gov’t Emps., Local 1592 v. Fed.
Labor Relations Auth., 836 F.3d 1291, 1295 (10th Cir.
2016) (explaining that we should look to a statute’s
text, structure, purpose, history, and relationship to
other statutes to determine if the statute is
ambiguous). To begin, the structure of the statute
suggests that the word “legitimated” could be defined
in more than one way, depending on state law. That
is, § 1101(b)(1)(C) provides that a child must be
legitimated “under” the law of the child’s or father’s
residence. When “legitimated” is understood in the
context of the statute—as opposed to read in isolation
as the Court’s opinion would have it—the section
allows for multiple interpretations, as states are free

49a
to define the term as they see fit. While the Court
suggests the phrase “under” state law only refers to
how a child may be legitimated (as opposed to who
may be legitimated), nothing in the statute’s plain
language suggests such a construction.
Quite the opposite, in fact. Section 1101(b)(1)(C)
contains no mention of who may be legitimated, and
it certainly includes no explicit requirement that the
legitimated child be biologically related to the
legitimating parent. The Court dismisses Congress’s
failure to include a biological requirement by
suggesting Congress “did not need to specify . . . that
only a child’s ‘natural’ parent may be his ‘legitimating’
parent because . . . that biological connection is
already implicit in the concept of legitimation.” The
Court supports this contention by pointing to other
sections of the original 1952 Act wherein, by the
Court’s argument, Congress clearly contemplated
that legitimation implied a biological relationship.
See, e.g., 8 U.S.C. § 1409(a), (b) (2020); 8 U.S.C.
§ 1432(a)(3) (repealed 2000). But what the Court fails
to recognize is that, in those other sections, Congress
expressly required both legitimation and a biological
relationship. See id.
For example, 8 U.S.C. § 1409(a) allows a child
born out of wedlock to be naturalized if, among other
things, “the [child] is legitimated under the law of the
[child’s] residence
or domicile.”
8 U.S.C.
§ 1409(a)(4)(A). To be legitimated is not enough,
however. Section 1409(a) also requires proof of “a
blood relationship between the [child] and the father.”
8 U.S.C. § 1409(a)(1); see also 8 U.S.C. § 1409(b)
(providing that the paternity of a child can be
established by legitimation); 8 U.S.C. § 1432(a)(3)
(repealed 2000) (stating the same). Interestingly, the
Court argues these sections support its conclusion

50a
that legitimation inherently implies a biological
connection. But if a biological connection was inherent
or implied, it would not need to be explicitly stated.
And while the Court is correct—we generally assume
identical words used in different parts of the same act
have the same meaning—this presumption is
overcome by evidence that Congress intended
something different. Here, where Congress plainly
required proof of legitimation and a blood relationship
to be naturalized under § 1409(a) but omitted the
requirement of a biological connection to be a “child
legitimated” under § 1101(b)(1)(C), we cannot assume
Congress intended the same thing. See Maralex Res.,
Inc. v. Barnhardt, 913 F.3d 1189, 1200 n.5 (10th Cir.
2019) (quoting Pereira v. Sessions, 138 S. Ct. 2105,
2115 (2018)).
Even if we look exclusively at 8 U.S.C.
§ 1101(b)(1), subsection (D) provides that the
definition of a “child” under the Act also encompasses
“a child born out of wedlock, by, through whom, or on
whose behalf a status, privilege, or benefit is sought
by virtue of the relationship of the child to its natural
mother or to its natural father if the father has or had
a bona fide parent-child relationship with the person.”
8 U.S.C. § 1101(b)(1)(D) (emphasis added). That
Congress used the terms “natural mother” and
“natural father” when it needed to in § 1101(b)(1)(D)
but omitted the “natural mother” and “natural father”
requirement from § 1101(b)(1)(C) is telling. We should
not read into a statute that which is absent—
particularly where Congress included the very words
we seek to add in an adjoining subsection. See Antonin
Scalia & Bryan A. Garner, READING THE LAW: THE
INTERPRETATION
OF
LEGAL
TEXTS
93
(2012) (explaining that courts should avoid adding “to
what the text states or reasonably implies . . . . [t]hat

51a
is, a matter not covered is to be treated as not
covered.”). Again, the Court dismisses this argument
with the notion that a biological connection is implicit
in the concept of legitimation. But again, where
Congress wanted to condition legitimation on a
biological connection, it plainly did so. See 8 U.S.C.
§ 1409(a). Here, Congress omitted any mention of who
can be legitimated, and we should not read any such
requirement into the statute.
In sum, the plain language and structure of the
statute, as well as the use of the term “legitimation”
throughout the Act, supports the conclusion that a
legitimated child in § 1101(b)(1)(C) need not have a
biological connection to the legitimating parent.
Though the Court presents several persuasive
arguments that the term “legitimation” does imply
such a requirement, both interpretations are
reasonable. While I could delve further into the
statute’s purpose and legislative history, the result is
the same. Because the statute is reasonably
susceptible to more than one interpretation, it is
ambiguous under Chevron step one. See Nat’l Credit
Union, 764 F.3d at 1226.
Once we determine the statute is ambiguous, we
must defer to the agency’s interpretation if it is
“reasonable.” Encino Motorcars, LLC v. Navarro, 136
S. Ct. 2117, 2125 (2016). On this issue, I need not
belabor the point—the agency’s interpretation of
“legitimated” is reasonable. As the Court’s opinion
carefully explains, the plain meaning of a “legitimated
child” often infers a biological relationship between
the parent and child. Therefore, while I would
conclude that § 1101(b)(1)(C) is ambiguous, I would
nonetheless defer to the agency’s reasonable
interpretation under Chevron. See Chevron, 467
U.S. at 843. And for this reason, I concur in the result.

52a
B. Waiver of Gender Discrimination Claim
Although I would uphold the agency’s reasonable
interpretation of the term “legitimated,” I would
nonetheless remand this case to the district court for
consideration of Mr. Schreiber’s constitutional
challenge to the agency’s determination. In so far as
the Court holds Mr. Schreiber waived his equal
protection claim by failing to present it in his optional
interagency appeal, I dissent.
Typically, plaintiffs must exhaust their
administrative remedies before bringing their
grievances to federal court. Forest Guardians v.
U.S. Forest Serv., 641 F.3d 423, 430 (10th Cir. 2011).
To satisfy the exhaustion requirement, plaintiffs must
“‘structure their participation so that it alerts the
agency to the parties’ position and contentions,’ in
order to allow the agency to give the issue meaningful
consideration.” Forest Guardians v. U.S. Forest Serv.,
495 F.3d 1162, 1170 (10th Cir. 2007) (citing Dep’t of
Transp. v. Pub. Citizen, 541 U.S. 752, 764 (2004)).
Claims not properly raised before the agency are
waived. Id. Thus, “we often refuse to consider
arguments—sometimes very good arguments—that
were not presented to the agency before being
presented to us.” Garcia-Carbajal v. Holder, 625 F.3d
1233, 1237 (10th Cir. 2010).
Nevertheless, in Darby v. Cisneros, the Supreme
Court held lower courts cannot require a plaintiff to
exhaust administrative remedies before seeking
judicial review under the APA unless the relevant
statute or agency rule specifically mandates
exhaustion as a prerequisite to judicial review. 509
U.S. 137, 154 (1993); see also Farrell-Cooper Mining
Co. v. U.S. Dep’t of Interior, 864 F.3d 1105, 1107
(10th Cir. 2017) (applying Darby). The Supreme Court
cautioned lower courts that “impos[ing] additional

53a
exhaustion requirements beyond those provided by
Congress or the agency . . . would transform § 10(c) [of
the APA] from a provision designed to ‘remove
obstacles to judicial review of agency action,’ into a
trap for unwary litigants.” Darby, 509 U.S. at 146–47
(citing Bowen v. Massachusetts, 487 U.S. 879, 904
(1988)).
In this case, the parties agree Mr. Schreiber was
not required to appeal to the BIA. See 8 C.F.R.
§ 1003.1(b) (providing a person “may” appeal to the
BIA). Therefore, the question becomes: If a plaintiff
elects to pursue an optional administrative appeal but
fails to raise certain claims, are those claims
reviewable in the first instance at the district court?
Extending Darby, at least one circuit court has held
that they are.
In AAA Bonding Agency Inc. v. United States
Department of Homeland Security, the Fifth Circuit
reversed the district court’s holding that the plaintiffs
forfeited one of their claims by pursuing an optional
administrative appeal without raising that claim. 447
F. App’x 603, 612 (5th Cir. 2011) (unpublished). The
court explained that “when an agency’s regulations
require issue exhaustion in administrative appeals,
an issue not presented to the administrative body
cannot be asserted for the first time in federal court.”
Id. But, relying on Darby, the Fifth Circuit concluded
“federal courts do not have the authority to require a
plaintiff to exhaust administrative remedies before
seeking judicial review under the APA, where neither
the relevant statute nor agency rules specifically
mandate exhaustion as a prerequisite to judicial
review.” Id. Because administrative review was
optional, the Fifth Circuit held the district court erred
in rejecting the plaintiffs’ claims arguments as
waived. Id.

54a
Although the Fifth Circuit’s opinion was
unpublished, it makes good sense. Mr. Schreiber’s
decision to pursue an optional administrative appeal
without raising his equal protection claim should not
foreclose his ability to pursue the claim in the district
court. To hold otherwise would “impose additional
exhaustion requirements beyond those provided by
Congress or the agency . . . [and] would transform
§ 10(c) from a provision designed to ‘remove obstacles
to judicial review of agency action,’ into a trap for
unwary litigants.” Darby, 509 U.S. at 146–47 (citing
Bowen, 487 U.S. at 904)).
Moreover, requiring plaintiffs who pursue
optional interagency appeals to present all their
claims or risk waiving judicial review would
discourage discretionary appeals. Take, for example,
the denial of a visa. In that situation, a plaintiff only
has 63 days to file an appeal brief with the BIA. But if
that person declined the optional interagency appeal,
he would have six years to file the same appeal in
federal court. See Impact Energy Res., LLC v. Salazar,
693 F.3d 1239, 1245 (10th Cir. 2012) (“APA claims are
generally covered by the six-year limitations period
contained in 28 U.S.C. § 2401(a).”). The additional
time a person would have to craft his claims before
presenting them in federal court (as opposed to in an
interagency appeal) creates a strong incentive to skip
the discretionary appeals process altogether. This
consideration is significant and not an outcome we
should espouse.
For these reasons, I would not require
Mr. Schreiber or other plaintiffs who choose to pursue
optional interagency appeals to exhaust all of their
claims in that discretionary appeal. In so far as the
Court concludes the opposite, I respectfully dissent.

55a
APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
LT. COL. PATRICK
SCHREIBER,
Plaintiff,

Case No. 172371-DDC-JPO

v.
JAMES McCAMENT,
et al.,
Defendants.
MEMORANDUM AND ORDER
Plaintiff Lt. Col. Patrick Schreiber seeks review
under the Administrative Procedure Act (“APA”),
5 U.S.C. § 706, of a decision by the United States
Citizenship and Immigration Services (“USCIS”)
denying Mr. Schreiber’s I-130 immigrant visa
petition. Plaintiff has filed an “Opening Brief” (Doc.
21) that asks the court to reverse the decision denying
his visa petition. Plaintiff asks the court to deem the
agency’s decision as arbitrary, capricious, and an
abuse of discretion. He also asks the court to deem the
decision a violation of the United States Constitution,
the plain language of the governing statute, and the
agency’s own policies. After reviewing the
administrative record and considering both parties’
arguments, the court affirms the USCIS’s decision.
The court explains why, below.

56a
I.

Background

The parties do not dispute the facts of this case,
and the court summarizes those facts presented in the
parties’ briefing.
Plaintiff and his wife, Soo Jin Schreiber, are both
United States citizens. Mrs. Schreiber’s 1 brother’s
daughter, Hyebin, was born in South Korea in 1997.
Hyebin arrived in the United States on December 15,
2012, when she was 15 years old, on a student visa.
She lived with plaintiff and his wife from that point
forward and attended school in Lansing, Kansas.
Plaintiff and his wife adopted Hyebin, and the District
Court of Leavenworth County, Kansas, issued a
decree of adoption on November 17, 2014. That Court
concluded that Hyebin’s biological parents “freely and
voluntarily” had consented to the adoption. Doc. 16 at
55. Hyebin received her Kansas birth certificate on
December 14, 2017. And the United States
Department of Defense issued Hyebin a military
identification card.
Plaintiff alleges that USCIS officials told him
that, because Hyebin was a citizen based on the
adoption, he needed to file a Form N-600—an
Application for a Certificate of Citizenship. Plaintiff
filed the form pro se. The USCIS’s Kansas City Field
Office denied plaintiff’s application. Plaintiff alleges
that USCIS officials then directed him to file a visa
petition for Hyebin—an I-130 Petition for Alien
Relative. Plaintiff’s I-130 visa petition asked that
Hyebin be classified as an immediate relative—
specifically, as a “legitimated” child—under the
Immigration and Nationality Act (“INA”), 8 U.S.C.
1
Plaintiff refers to Soo Jin Schreiber as “Mrs. Schreiber.” So, out
of respect for plaintiff’s preference, the court adopts that naming
convention in this Order.

57a
§ 1101(b)(1)(C). 2 Doc. 16 at 137-38, 122-26 (plaintiff’s
arguments for classifying Hyebin as an immediate
relative appear in his Memorandum of Law in
Support of I-130 Petition for Legitimated Child Under
INA 101(b)(1)(C)). USCIS issued a Notice of Intent to
Deny plaintiff’s visa petition because Hyebin was
more than 16 years old when plaintiff and his wife
adopted her. The age cutoff to classify a person as an
adopted “child” for immigration purposes is 16 years
under a different provision of the INA, 8 U.S.C.
§ 1101(b)(1)(E). 3
Plaintiff responded to USCIS’s
Title 8 U.S.C. § 1101(b)(1)(C) sets out one of seven ways a
person can qualify as a “child” under the INA. Specifically, it
provides that a person qualifies as a “child” under the statute if
she is:
2

legitimated under the law of the child’s residence
or domicile, or under the law of the father’s
residence or domicile, whether in or outside the
United States, if such legitimation takes place
before the child reaches the age of eighteen years
and the child is in the legal custody of the
legitimating parent or parents at the time of such
legitimation[.]
3
Title 8 U.S.C. § 1101(b)(1)(E) provides that a person qualifies
as a “child” under the statute if she has been:
(i) . . . adopted while under the age of sixteen years
if the child has been in the legal custody of, and
has resided with, the adopting parent or parents
for at least two years or if the child has been
battered or subject to extreme cruelty by the
adopting parent or by a family member of the
adopting parent residing in the same household:
Provided, [t]hat no natural parent of any such
adopted child shall thereafter, by virtue of such
parentage, be accorded any right, privilege, or
status under this chapter; or (ii) subject to the
same proviso as in clause (i), a child who: (I) is a
natural sibling of a child described in clause (i) or

58a
Notice, arguing that Hyebin should be classified as a
child
under
the
legitimation
category
in
§ 1101(b)(1)(C), instead of under the adoption
category in § 1101(b)(1)(E).
USCIS denied plaintiff’s I-130 visa petition.
Plaintiff argues that USCIS made the decision
“without any analysis or consideration as to the
applicability of § 1101(b)(1)(C)” to the petition. Doc. 21
at 10. Plaintiff then timely appealed USCIS’s decision
to the Board of Immigration Appeals (“BIA”). He
again argued that Hyebin should be classified as a
“legitimated” child under § 1101(b)(1)(C).
The BIA dismissed plaintiff’s appeal. The BIA
concluded that the adoption provision categorizing a
person as a “child” in § 1101(b)(1)(E) could not apply
to Hyebin because her adoption was finalized after she
already had turned 16. The BIA also determined that
Hyebin could not be categorized as a child under
§ 1101(b)(1)(C)’s legitimation provision because
plaintiff had not established that Hyebin is his
biological child. The BIA cited Matter of Bueno, 21 I.
& N. Dec. 1029 (BIA 1997), where the BIA held that,
“to qualify as the legitimated child of the petitioner
under section 101(b)(1)(C) of the [Immigration and
Nationality Act], the beneficiary must be the
biological child of the petitioner.” Doc. 16 at 68. The
BIA noted plaintiff did not argue that he is Hyebin’s
biological father. The BIA also explained that it had

subparagraph (F)(i); (II) was adopted by the
adoptive parent or parents of the sibling described
in such clause or subparagraph; and (III) is
otherwise described in clause (i), except that the
child was adopted while under the age of 18
years[.]

59a
considered the amicus curiae’s arguments. 4
Specifically, they had argued that Kansas law
recognized adoption as an avenue to establish
paternity, but the BIA did not use those arguments as
grounds for its decision. Finally, the BIA concluded
that it did not have jurisdiction to “rule on the
constitutionality of the laws it administers.” Id.
(citing Matter of Fuentes-Campos, 21 I. & N. Dec. 905,
912 (BIA 1997)).
Plaintiff now argues that the BIA “denied the
appeal without any real analysis.” Doc. 21 at 10
(referencing the BIA’s “short” and “terse[]” fourparagraph opinion). Plaintiff also asserts that neither
USCIS nor the BIA has alleged that plaintiff’s visa
petition or family relationships are fraudulent.
Instead, plaintiff contends in this appeal that he has
“no category under which to petition for [the
citizenship of] his daughter.” Doc. 21 at 10–11.

The Washburn Law Clinic and the Children and Family Law
Center filed a brief as amicus curiae on March 27, 2017. Doc. 16
at 80–91. They argued that Kansas law recognizes adoption as
one way to establish paternity. They also asserted that Kansas
law has moved away from using language such as “legitimate”
and “illegitimate” to describe a child’s relationship to her
parents. Instead, they contended, Kansas law recently has
tended to use language describing children’s paternity, and the
Supreme Court of Kansas has defined adoption as a method of
legitimation. Doc. 16 at 85 (citing Aslin v. Seamon, 587 P.2d 875,
877 (Kan. 1978)). They also argued that there is no biological
prerequisite to establishing a parental relationship, and that
adoption is simply one way to do so. They thus concluded that
Hyebin should be classified as a “legitimated” child because her
adoption established such a parent-child relationship. Finally,
they asserted that the USCIS decision in this case violated
plaintiff’s equal protection rights under the United States
Constitution because it treated parentage established by
legitimation and parentage established by adoption differently.
4

60a
II.

Standard and Scope of Review

Plaintiff’s “Opening Brief” (Doc. 21) seeks review
under the APA of the BIA’s decision denying plaintiff’s
I-130 visa petition for his daughter. He raises both
statutory and constitutional arguments. The APA
grants federal courts authority to review agency
decisions. See 5 U.S.C. § 702. And the APA recognizes
that this court properly can evaluate “agency action,
findings, and conclusions found to be . . . contrary to
constitutional right, power, privilege, or immunity.”
5 U.S.C. § 706(2)(B). Indeed, the APA provides that a
reviewing court must set aside an agency action that
is “arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.”
Id. at
§ 706(2)(A); see also Kobach v. Election Assistance
Comm’n, 772 F.3d 1183, 1197 (10th Cir. 2014)
(citations omitted). When a court applies the
“arbitrary and capricious” standard of review under
the APA, it “must ‘ascertain whether the agency
examined the relevant data and articulated a rational
connection between the facts found and the decision
made.’” Kobach, 772 F.3d at 1197 (quoting Aviva Life
& Annuity Co. v. FDIC, 654 F.3d 1129, 1131 (10th Cir.
2011)).
The Supreme Court describes the scope of review
under this standard as a “narrow” one, and it cautions
that a court must not “substitute its judgment for that
of the agency.” Judulang v. Holder, 132 S. Ct. 476,
483 (2011) (citations and internal quotation marks
omitted); see also Kobach, 772 F.3d at 1197 (“This
[arbitrary and capricious] standard of review is very
deferential to the agency’s determination, and a
presumption of validity attaches to the agency action
such that the burden of proof rests with the party
challenging it.” (citations and internal quotation
marks omitted)).

61a
Despite this deferential standard, a court’s review
still plays an important role by “ensuring that
agencies have engaged in reasoned decisionmaking.”
Judulang, 132 S. Ct. at 483-84. This standard
requires a court to “assess, among other matters,
whether the decision was based on a consideration of
the relevant factors and whether there has been a
clear error of judgment.” Id. at 484 (citations and
internal quotation marks omitted). Also, the court
must determine whether the agency supported its
determination with “substantial evidence.” Hall v.
U.S. Dep’t of Labor, Admin. Review Bd., 476 F.3d 847,
854 (10th Cir. 2007) (internal quotations omitted).
Substantial evidence requires “more than a scintilla
but less than a preponderance of the evidence, and the
possibility of drawing two inconsistent conclusions
from the evidence does not prevent the [agency’s]
findings from being supported by substantial
evidence.” Id. In particular, there is a “limited scope
of judicial inquiry into immigration legislation.”
Fiallo v. Bell, 430 U.S. 787, 792 (1977) (discussing
judicial review of the INA). Judicial review of agency
action must be based on the “whole record or those
parts of it cited by a party.” 5 U.S.C. § 706; see also
SEC v. Chenery Corp., 318 U.S. 80, 87
(1943) (determining that “[t]he grounds upon which
an administrative order must be judged are those
upon which the record discloses that its action was
based”).
III. Analysis
Plaintiff argues, first, that the plain meaning of
8 U.S.C. § 1101(b)(1)(C) is unambiguous and that the
court should not give any deference to the agency’s
determination under Chevron U.S.A., Inc. v. Nat. Res.
Def. Council, Inc., 467 U.S. 837 (1984). He makes
several arguments why there is no prerequisite

62a
biological relationship for a child to become
“legitimated” under § 1101(b)(1)(C). Second, plaintiff
contends that the USCIS’s denial of his visa petition
violates two constitutional provisions: the Fifth
Amendment and the Tenth Amendment. After
summarizing the parties’ arguments, the court
addresses them in the sections below.
Plaintiff asserts that defendants “insistently
shoehorned” his visa petition on his daughter’s behalf
into the adoption provision of the INA
(§ 1101(b)(1)(E)). He argues that each statutory
subsection defining the ways a person can be
classified as a “child” present alternatives to one
another. Plaintiff thus asserts that defendants should
have considered his application under the provision
he identified in his visa petition: the provision about
legitimated children, § 1101(b)(1)(C). The plain
language of § 1101(b)(1)(C), plaintiff contends, is not
ambiguous— and thus deserves no Chevron deference
because, “if Congress’s intent is clear, . . . the court
must give effect to that intent.” Doc. 28 at 9 (citing
Heaven v. Gonzales, 473 F.3d 167, 175 (5th Cir. 2006).
Section 1101(b)(1)(C) defines a person as a “child”
if she is
legitimated under the law of the child’s
residence or domicile, or under the law of the
father’s residence or domicile, whether in or
outside the United States, if such legitimation
takes place before the child reaches the age of
eighteen years and the child is in the legal
custody of the legitimating parent or parents
at the time of such legitimation[.]
Id. Plaintiff looks to surrounding statutory provisions
such as § 1101(b)(1)(A), § 1101(b)(1)(B), and
§ 1101(b)(1)(D), which provide other INA definitions

63a
for the term “child.” These other provisions use words
such as “in wedlock,” “out of wedlock,” “natural
mother,” and “natural father.” The plain meaning of
the language in §§ 1101(b)(1)(A), 1101(b)(1)(B), and
1101(b)(1)(D), plaintiff argues, shows that a “genetic
link” is required. But, he notes, the plain meaning of
§ 1101(b)(1)(C) does not contain this language. Docs.
21 at 15, 28 at 3.
Also, plaintiff argues “‘[l]egitimacy is a legal
concept’” that “state or foreign entit[ies]” govern. Doc.
21 at 16 (first quoting Iracheta v. Holder, 730 F.3d
419, 424 (5th Cir. 2013)). Under Kansas law, plaintiff
notes, “legitimation has long been accomplished in one
of three ways, ‘includ[ing] . . . adoption pursuant to
K.S.A. 59-2103.’” Doc. 21 at 18 (quoting Aslin v.
Seamon, 587 P.2d 875, 877 (Kan. 1978)). Because
Kansas law recognizes adoption as a form of
“creat[ing] a parent-child relationship that cannot be
undone,” plaintiff argues that this state law definition
should control whether Hyebin can be classified as a
“legitimated” child under § 1101(b)(1)(C). Doc. 21 at
19. Plaintiff thus asserts that defendants erroneously
required a direct biological link between the parent
and child at issue before that child’s visa petition can
qualify under the legitimation provision of
§ 1101(b)(1)(C).
In his Reply Brief, plaintiff also argues that the
agency’s action is not entitled to Chevron deference.
First, plaintiff asserts that the BIA “started and
ended with the idea that only ‘illegitimate’ children
could be ‘legitimated,’” a proposition, plaintiff argues,
that “arbitrarily limited the plain language of the
statute.” Doc. 28 at 10. Second, plaintiff asserts that,
because Congress did not “charge[] the [BIA] with
interpreting state legitimating procedures”—and
because state law purportedly controls the definition

64a
of legitimation—the court should give no Chevron
deference to the agency’s decision. Id. (citing Efagene
v. Holder, 642 F.3d 918, 921 (10th Cir. 2011)).
Next, plaintiff discusses the concept of Assisted
Reproductive Technology (ART). Plaintiff notes that
the agency, in October 2014, began to recognize that a
gestational mother carrying a child to whom she does
not have a biological connection can be considered “the
‘natural mother’ of a child born out of wedlock . . . if
she is the legal parent at the time of birth.” Doc. 21
at 18 (quoting Effect of Assisted Reproductive
Technology (ART) on Immigration and Acquisition of
Citizenship Under the Immigration and Nationality
Act (INA), U.S. Citizenship & Immigration Servs. 1
(Oct. 28,
2014),
https://www.uscis.gov/policymanual/Updates/201410
28-ART.pdf). Plaintiff argues that, in the context of
ART, the agency recognizes non-genetic relationships
for purposes of legitimation under § 1101(b)(1)(C), and
so it also must recognize non-genetic adoptive parents
like plaintiff. These non-genetic gestational mothers,
he says, “may be required to take action after the birth
of the child to formalize the legal relationship”—a step
he compares to formalizing an adoption after a child
is born. Doc. 21 at 19. Finally, plaintiff argues that
past BIA decisions requiring a biological connection as
a prerequisite to legitimation are contrary to the
agency’s policy statements about ART. Doc. 21 at 20
(citing In re Bueno-Almonte, 21 I. & N. Dec. 1029 (BIA
1997)). Plaintiff specifically asserts that the agency
failed to explain the difference between its position on
ART and the biological prerequisite for legitimation in
plaintiff’s case. He argues that the agency’s
reasoning—or more, accurately, the absence of
reasoning—constituted arbitrary and capricious
action and amounted to an abuse of discretion.

65a
Procedurally, plaintiff cites Darby v. Cisneros, 509
U.S. 137 (1993), claiming that the gravamen of this
case only requires plaintiffs to exhaust administrative
remedies mandated by statutes or regulations.
Plaintiff argues that because decisions denying visa
petitions do not statutorily require an appeal to the
BIA—as orders of removal do, for example—plaintiff
was not required to exhaust his administrative
remedies before seeking judicial review. Plaintiff also
contends that remand to the BIA would be futile
because the BIA “already [has] shut off applicability
of any other provision of 8 U.S.C. § 1101(b)(1) to the
current matter [and] is unlikely to veer from that
course.” Doc. 28 at 13.
In sum, plaintiff argues that his interpretation of
the statute aligns with congressional intent,
“hold[ing] family unity, especially for families
involving minor children, as paramount in the
definition of ‘child.’” Doc. 28 at 6–7 (citing Matter of
M-----, 8 I. & N. Dec. 118, 119 (BIA 1958). Plaintiff
asserts that his interpretation of § 1101(b)(1)(C)
protects “[t]he narrow classification of children who
are legitimated by adoption, but who fall outside of
section 1101(b)(1)(E) due to age . . . so long as they
were under 18 at the time of legitimation.” Doc. 28 at
7.
Defendants argue that the agency’s interpretation
deserves Chevron deference. Defendants first assert
that § 1101(b)(1)(C) is “silent regarding the definition
of legitimation and whether legitimation requires an
immediate biological connection between the
legitimating parent and the child.” Doc. 27 at 19.
Next, defendants cite Matter of Bueno, 21 I. & N.
Dec. 1029 (BIA 1997), contending that they
reasonably interpret § 1101(b)(1)(C) by requiring a
genetic, biological connection between the parent

66a
submitting the visa petition and the child in question.
Defendants argue that this interpretation was
reasonable because the BIA evaluated our Circuit’s
usage of that term as well as the BIA’s prior
application. Matter of Bueno, 21 I. & N. Dec. 1029,
1032 n.1. Since Hyebin is not plaintiff’s biological
child, defendants contend, the BIA properly applied
Bueno to the facts of this case.
Also, defendants assert that the court should not
even evaluate two of plaintiff’s arguments.
Defendants first argue that the court should not
consider plaintiff’s argument that Kansas law defines
whether Hyebin is a legitimated child for the purposes
of § 1101(b)(1)(C). They note that the court only may
“‘judge the propriety of [the agency’s] action solely by
the grounds invoked by the agency,’” and “[i]f the
[c]ourt cannot affirm or deny the [agency’s] decision
on their stated grounds, then remand is appropriate.”
Doc. 27 at 25 (first quoting SEC v. Chenery Corp., 332
U.S. 194, 196 (1947)). But, even if the court should
decide that Kansas law includes adoption as a method
of legitimation, defendants say federal law controls
the issue. Defendants contend that the agency’s
determination does not disturb the Kansas court’s
adoption decree. Instead, the agency merely decided
whether that decree “met the requirements to
constitute legitimation, for immigration purposes.”
Doc. 27 at 26. And “Congress could not establish a
uniform rule of naturalization if a state court could
modify Congress’s mandates on qualification.” Doc.
27 at 27. Defendants thus argue that federal law
controls the definition of legitimation.
Second, defendants assert that the court should
not consider plaintiff’s ART arguments because
plaintiff did not exhaust the administrative agency’s
consideration of these arguments. Defendants argue

67a
that plaintiff only “mention[ed] ART in passing before
the BIA, . . . [and] this two sentence footnote did not
present the claim ‘in sufficient detail to allow the
agency to rectify’ Plaintiff’s perceived inconsistency
between Bueno and USCIS’s policy regarding ART.”
Doc. 27 at 21 (quoting Forest Guardians v. U.S. Forest
Serv., 641 F.3d 423, 430–31, 431 n.6 (10th Cir. 2011)).
In the sections below, the court first addresses the
parties’ competing statutory interpretation and
deference arguments. Next, the court discusses
plaintiff’s constitutional arguments and assesses
whether it can consider plaintiff’s argument about
ART and his argument that state law controls the
definition of legitimation.
A.
Statutory Interpretation of 8 U.S.C.
§ 1101(b)(1)(C)
To determine whether the agency’s determination
in plaintiff’s case merits deference, the court first
must consider whether the statute at issue is
ambiguous. See Efagene v. Holder, 642 F.3d 918, 920
(10th Cir. 2011) (citing Chevron, 467 U.S. 837, and
Carpio v. Holder, 592 F.3d 1091, 1096 (10th Cir.
2010)). The court “is the final authority on issues of
statutory construction and [it] must reject
administrative constructions which are contrary to
clear congressional intent.” Chevron, 467 U.S. at 843
n.9. The court must use “traditional tools of statutory
construction [to] ascertain[] that Congress had an
intention on the precise question at issue.” Id. If
Congress has an “unambiguously expressed intent,”
then “that is the end of the matter; for the court, as
well as the agency, must give effect” to that intent. Id.
at 842–43; see also Epic Sys. Corp. v. Lewis, 138 S. Ct.
1612, 1630 (2018) (“Where . . . the canons [of statutory
construction] supply an answer, ‘Chevron leaves the
stage.’”). Our Circuit has identified the statutory

68a
interpretation tools courts should employ before
determining
whether
Chevron
deference
is
appropriate. Am. Fed’n of Gov’t Emps., Local 1592 v.
Fed. Labor Relations Auth., 836 F.3d 1291, 1295
(10th Cir. 2016). They include: “‘examination of the
statute’s text, structure, purpose, history, and
relationship to other statutes.’” Id. (quoting Harbert
v. Healthcare Servs. Grp., Inc., 391 F.3d 1140, 1147
(10th Cir. 2004)).
As a threshold matter, the parties disagree
whether the legitimation provision in § 1101(b)(1)(C)
is ambiguous. The court thus begins its analysis of
interpreting § 1101(b)(1)(C) by using the tools
described above. For reasons explained in the next
paragraphs, the court ultimately concludes that this
provision is not ambiguous.
Though few courts have interpreted “legitimation”
under § 1101(b)(1)(C), the court finds De Los Santos v.
INS, 525 F. Supp. 655 (S.D.N.Y. 1981), aff’d, 690 F.2d
56 (2d Cir. 1982), particularly instructive. In that
case, the plaintiff sought judicial review of a decision
by the Immigration and Naturalization Service
(“INS”)—USCIS’s predecessor agency—that denied a
visa petition for his son because, INS concluded, his
son did not qualify as a “legitimated” child under the
INA. De Los Santos, 525 F. Supp. at 657. The text of
§ 1101(b)(1)(C) applied by De Los Santos remains the
same as it did in 1981, when that case began:
[A child must have been] legitimated under
the law of the child’s residence or domicile, or
under the law of the father’s residence or
domicile, whether in or outside the United
States, if such legitimation takes place before
the child reaches the age of eighteen years and
the child is in the legal custody of the

69a
legitimating parent or parents at the time of
such legitimation.
Id. Though the district court’s opinion in De Los
Santos considered a different statutory interpretation
question, it nonetheless provided a comprehensive
overview of the INA’s legislative history and related
statutes that is germane to the court’s analysis here.
Below, the court applies each of the canons of
statutory construction and relies on contextual
information about the INA taken from the district
court’s De Los Santos opinion to help resolve the
statutory interpretation question in this case.
First, the court must look to the “language of the
statute itself” and consider its text and structure. See
Consumer Prod. Safety Comm’n v. GTE Sylvania, Inc.,
447 U.S. 102, 108 (1980). The court must give the
words “their ordinary, contemporary, common
meaning.” Perrin v. United States, 444 U.S. 37, 42
(1979). Because the word “legitimate” functions as a
verb in § 1101(b)(1), the court first considers the
definitions for “legitimate” as a verb in the most
current version of Merriam-Webster’s Dictionary.
This source defines “legitimate” as “to make (someone
or something) legitimate: (1) to give legal status or
authorization to; (2) to show or affirm to be justified;
(3) to lend authority or respectability to.” Legitimate,
The Merriam-Webster Dictionary (2016). This
dictionary also defines “legitimate” to mean, “to give
(a child born out of wedlock) the same legal status as
a child born in wedlock.” Id. As an adjective, the
dictionary first defines “legitimate” as “lawfully
begotten,” “specifically: born in wedlock,” and “having
full filial rights and obligations by birth.” Id. Black’s
Law Dictionary is similar. It defines the adjective
form of “legitimate” as “[b]orn of legally married
parents.”
Legitimate, Black’s Law Dictionary

70a
(10th ed. 2014); see also Scales v. INS, 232 F.3d 1159,
1164 (9th Cir. 2000) (concluding that, under a plain
reading of the INA, “[a] ‘legitimate’ child is one ‘[b]orn
of legally married parents,’ or ‘born or begotten in
lawful wedlock or legitimized by the parents’ later
marriage,’” and noting that “[t]he INA does expressly
require a blood relationship between a person
claiming citizenship and a citizen father, if the person
is born out of wedlock” (quoting Black’s Law
Dictionary 912, 232 (7th ed. 1999))).
The court recognizes that one definition of
“legitimate” merely means that a person (or thing) has
achieved “legal status” or “authorization”—and never
refers to a biological relationship. But several other
definitions contemplate “lawful[]” birth, birth “in
wedlock,” birth “of legally married parents,” and
“obligations by birth.” To qualify as a “child,” the
statute requires that a person must be “legitimated
under the law of the child’s residence or domicile, or
under the law of the father’s residence or domicile.”
8 U.S.C. § 1101(b)(1)(C). The court thus concludes
that, in the context of this statute, several—but not
all—definitions of the operative word “legitimate”
assume a biological connection between a parent and
a legitimate child. The court is “impel[led] . . . toward”
the conclusion that the “ordinary, contemporary,
common meaning” of “legitimate,” overall, ascribes a
biological relationship by birth to this term. De Los
Santos v. INS, 525 F. Supp. at 661. Also, the statute’s
text places the word “legitimated” before the words,
“under the law of the child’s residence or domicile, or
under the law of the father’s residence or domicile.”
8 U.S.C. § 1101(b)(1)(C). The plain meaning of most
definitions of the word “legitimate” suggests that a
biological connection is required, and that the law of

71a
the child or father’s domicile alone does not supply the
definition.
But the court’s analysis does not end with the text
and structure of the statute. As the Supreme Court
and De Los Santos have held, “ascertainment of the
meaning apparent on the face of a statute should not
end a court’s inquiry.” De Los Santos, 525 F. Supp. at
661 (citing Watt v. Alaska, 451 U.S. 259, 265–66
(1981)). The court thus proceeds to the second canon
of statutory construction our Circuit has identified:
the statute’s legislative history. See Am. Fed’n of Gov’t
Emps., 836 F.3d at 1295.
De Los Santos and the parties here note that
Congress first incorporated language about
“legitimated” children into the INA in 1952. Docs. 21
at 2, 27 at 12; De Los Santos, 525 F. Supp. at 665. The
congressional reports, hearing transcripts, and floor
debate about the INA include no analysis of
§ 1101(b)(1)(C). See De Los Santos, 525 F. Supp. at
664–65 (citing H.R. Rep. No. 1365 (1952); S. Rep.
No. 1137 (1952); H.R. Rep. No. 2096 (1952) (Conf.
Rep.); Revision of Immigration, Naturalization, and
Nationality Laws: Joint Hearings on S. 716, H.R.
2379, and H.R. 2816 Before the Subcomms. of the
Comms. on the Judiciary, 82d Cong. (1951)). But De
Los Santos provides historical regulations and
recommendations discussing whether “illegitimate
children should be deemed ‘children’ for the purposes
of the United States immigration laws.” Id. at 664–
65.
In 1946, six years before the INA’s enactment, the
State Department had discussed “illegitimate
children” and “legitimated child[ren]” in the
immigration context in this regulation:
Illegitimate children. A petition for nonquota
status for an illegitimate child who is an alien

72a
may be filed with the Department of Justice
when the petition is executed by the mother,
if she is a citizen of the United States, or by
the father, if he has subsequently married the
mother of the illegitimate child and thereby
conferred on the child the rights of legitimacy
or has legitimated the child under the law of
his domicil, and if he is an American citizen.
Nonquota Immigrants, 11 Fed. Reg. 8,919 § 61.209
(Aug. 17, 1946); see also De Los Santos, 525 F. Supp.
at 664. In 1947, one year after the State Department
published its regulations, the Senate’s Judiciary
Committee “conduct[ed] an investigation of and
submit[ted]
recommendations
concerning
the
immigration and nationality laws of the United
States.” De Los Santos, 525 F. Supp. at 665. “Many of
the report’s recommendations were carried over into
the legislation that was ultimately enacted as the
INA.” Id. (citing 98 Cong. Rec. 5088–89 (1952)). These
recommendations included the language from the
State Department’s discussion of “illegitimate
children[‘s] . . . ‘petition[s] for nonquota status.’” Id.
at 664 (quoting 11 Fed. Reg. 8,919 § 61.209). They also
incorporated language similar to the current text of
§ 1101(b)(1)(C), namely:
children could be
“‘legitimated under the law of either the child’s or the
father’s residence or domicile (and) if the legitimation
takes place before the child reaches the age of 16 and
while in the legal custody of the legitimating parent.’”
Id. (quoting S. Rep. No. 1515, at 468 (1950)).
Though the legislative history of the word
“legitimated” is limited, what is available supports the
conclusion that a biological link between the parents
and “legitimated” children is a requisite. The
presumption that a child first must be “illegitimate”
to become “legitimated” appears to have begun with

73a
the language used by the State Department
regulation’s language. 11 Fed. Reg. at 8,919 § 61.209;
see also De Los Santos, 525 F. Supp. at 664. The plain
reading of that regulation provides that the biological
father of an “illegitimate” child could initiate a
petition for nonquota status if he “legitimated the
child under the law of his domicil,” provided he met
other requirements. Id. The Judiciary Committee
does not appear to have changed the regulation’s
language when the Committee referenced the
regulation again in its 1947 recommendations.
Finally, since the INA’s enactment in 1952, Congress
has not changed the language of § 1101(b)(1)(C)
substantially. The court thus determines that the
“legitimation” language in § 1101(b)(1)(C) is rooted in
a biological connection between a parent and his child
for the purposes of visa petitions.
Next, the court considers the purpose of the
statute. See Am. Fed’n of Gov’t Emps., 836 F.3d at
1295; De Los Santos, 525 F. Supp. at 669 (citing
Chapman v. Hous. Welfare Rights Org., 441 U.S. 600,
608 (1979)). As our Circuit has emphasized, courts
“‘must guard against interpretations that might
defeat [the] statute’s purpose[.]” Harbert v.
Healthcare Servs. Grp., Inc., 391 F.3d 1140, 1149
(10th Cir. 2004) (quoting United States v. SotoOrnelas, 312 F.3d 1167, 1172 (10th Cir. 2002)).
Congress recognized “the desirability of
maintaining or fostering the unity of immigrant
families” when it created “preferential immigration
classifications” such as those favoring children. De Los
Santos, 525 F. Supp. at 669 (citing S. Rep. No. 1515
(1950)). Plaintiff also argues that the court should
consider this same “[c]ongressional decree of family
unity.” Doc. 21 at 17. “[I]nterpreting ‘legitimated’ in
accord with its plain meaning” to include a biological

74a
connection “inevitably prevents unification of some
immigrant families.” De Los Santos, 525 F. Supp. at
669. Plaintiff notes that there is a “narrow
classification of children who are legitimated by
adoption, but who fall outside of section 1101(b)(1)(E)
due to age.” Doc. 28 at 7. If the court interprets
§ 1101(b)(1)(C) to require a biological relationship, it
recognizes that the statute will not cover this “narrow
classification of children.” The court acknowledges
that the statute thus will not achieve at least one
congressional goal—family unity for these children.
But the statute’s failure to satisfy a legislative
goal for a particular group does not end the court’s
inquiry. The court’s capacity to review the agency’s
interpretation of a statute is limited. De Los Santos,
690 F.2d 56, 60 (2d Cir. 1982) (citing Unemployment
Comp. Comm’n v. Aragon, 329 U.S. 143, 153 (1946)).
“It is not the province of the courts to insist that [the
agency’s] interpretations of [the INA] result in the
perfect immigration scheme, or even that they be the
best interpretations possible.” Id.; see also Rochester
Tel. Corp. v. United States, 307 U.S. 125, 146
(1939) (“The judicial function is exhausted when there
is found to be a rational basis for the conclusions
approved by the administrative body.” (internal
quotations
omitted)).
Here,
the
agency’s
interpretation requiring a biological relationship
between plaintiff and his daughter aligns with the
INA’s plain language and its legislative history. Even
though this interpretation will exclude the category of
children that plaintiff identifies, it is not irrational or
contrary to the construction or history of the statute.
It’s just the opposite. The plain meaning and statutory
history support the agency’s interpretation that
§ 1101(b)(1)(C) requires a biological relationship
between a visa petitioner and his “legitimated” child.

75a
The court thus concludes that the agency’s
interpretation does not “defeat [the] statute’s
purpose[.]” Harbert, 391 F.3d at 1149.
Finally, the court considers § 1101(b)(1)(C)’s
relationship to other statutes. See Am. Fed’n of Gov’t
Emps., 836 F.3d at 1295; Northcross v. Bd. of Educ. of
Memphis City Sch., 412 U.S. 427, 428 (1973) (noting
that “[t]he similarity of language in [two statutes] is,
of course, a strong indication that the two statutes
should be interpreted pari passu”). De Los Santos
evaluated the Nationality Act of 1940, and its analysis
illuminates how past statutes with similar language
have treated “illegitimate” and “legitimate” children.
The Nationality Act included “[t]he first provisions in
the United States nationality laws that dealt with
illegitimate children.” 525 F. Supp. at 665 (noting
that the INA consolidated federal immigration and
nationality law). The Nationality Act allowed
“illegitimate child[ren] of United States citizens [to]
be eligible for United States citizenship if th[ose]
child[ren] had been ‘legitimated’ under the law of his
or her domicile and if the ‘legitimation’ occurred when
the child was in the legal custody of the legitimating
parent.”
Id. at 667. As De Los Santos notes,
congressional reports about the Nationality Act do not
discuss Congress’s intent for the terms “illegitimate”
and “legitimate.” But De Los Santos does observe that
“testimony during the hearings on the proposed
[Nationality Act] demonstrates that Congress
understood a ‘legitimated’ child to be a child who the
law treated ‘just as if it had been born legitimately.’”
Id. (quoting To Revise and Codify the Nationality
Laws of the United States into a Comprehensive
Nationality Code: Hearings on H.R. 6127 Before the
H. Comm. on Immigration and Naturalization,
76th Cong. 431 (1940)).

76a
The court reads the Nationality Act—”the body of
law most closely related to United States immigration
law” and the first immigration law discussing
“legitimation”—to endorse an interpretation that
requires a biological connection between a
legitimating parent and his child. Id. at 667. Also, the
Nationality Act of 1940 and the INA share the
language about “legitimated” and “illegitimate”
children. See id. at 666. And the Nationality Act
defined a “legitimated” child as one who would be
treated as though she had been born legitimately.
Like the language from the State Department’s 1946
regulations, the Nationality Act presumes that the
child in question was born “illegitimately,” and thus
must be “legitimated” later under the statute. The
Nationality Act’s language aligns with the legislative
history and plain meaning of the word “legitimated,”
as it currently appears in § 1101(b)(1)(C). The court
thus concludes that the text and legislative history of
the Nationality Act of 1940 also support the inference
that § 1101(b)(1)(C) requires a biological connection.
Having considered the plain meaning of the INA,
its legislative history and purpose, and the related
Nationality Act of 1940 and its use of the term
“legitimated,” the court concludes that § 1101(b)(1)(C)
is, on balance, not ambiguous. Congress has spoken
about the definition intended for the term
“legitimated.”
And the canons of statutory
interpretation persuade the court that Congress
intended for the term “legitimated,” in the context of
§ 1101(b)(1)(C), to require a biological connection
between the parent and child. The court also
concludes that the agency interpreted § 1101(b)(1)(C)
in accordance with this plain meaning of the statute.
See Kobach, 772 F.3d at 1197 (requiring the court to
“ascertain whether the agency examined the relevant

77a
data and articulated a rational connection between
the facts found and the decision made”); Hall v.
U.S. Dep’t of Labor, Admin. Review Bd., 476 F.3d 847,
854 (10th Cir. 2007) (requiring agencies to support
their conclusions with “substantial evidence,” which is
“more than a scintilla but less than a preponderance
of the evidence”). Here, USCIS determined that
because plaintiff lacked any biological relationship
with Hyebin and the term “legitimated” requires such
a connection, Hyebin could not be categorized as a
“child” under § 1101(b)(1)(C). The agency also
properly determined that plaintiff had adopted
Hyebin when she was over the age of 16 and thus no
longer could be classified as a “child” under
§ 1101(b)(1)(E).
The court holds that the agency’s determination
about plaintiff’s case was not arbitrary or capricious.
The agency provided sufficient rationale for its
decision based on the arguments that plaintiff
presented. See Lockheed Martin Corp. v. Admin
Review Bd., U.S. Dep’t of Labor, 717 F.3d 1121, 1129
(10th Cir. 2013) (determining that courts must give
“deference to [agency] construction of the [statute] if
reasonable” and “supported by substantial evidence,”
meaning “such relevant evidence a reasonable person
would deem adequate to support the ultimate
conclusion” (internal quotations and citations
omitted)). The USCIS and BIA decisions applying
8 U.S.C. §§ 1101(b)(1)(C) and 1101(b)(1)(E) are
affirmed.
B.
Constitutional Arguments
Plaintiff also makes two constitutional arguments
about the agency’s interpretation of § 1101(b)(1)(C).
First, relying on his Assisted Reproductive
Technology (“ART”) argument, plaintiff asserts that
the agency violated his equal protection rights under

78a
the Fifth Amendment. 5 Plaintiff contends that the
agency’s current policy recognizes non-genetic
gestational mothers who formalize relationships with
their children after birth, but not non-genetic fathers
like plaintiff, who formalized his relationship with
Hyebin after her birth. Plaintiff characterizes this
difference as unconstitutional disparate treatment.
See Doc. 21 at 21–22. Second, plaintiff argues that the
agency’s interpretation of § 1101(b)(1)(C) violates the
Tenth Amendment 6 because it abridges the states’
traditional function as the governmental authority
who defines legitimation. Requiring a biological
connection between plaintiff and Hyebin, he contends,
“places the State in the position of having to treat its
own citizens unequally and giving different value to
birth records of foreign children versus U.S. citizen
children [who are] adopted in the State of Kansas.”
Doc. 21 at 23. The agency’s interpretation, plaintiff
asserts, is “coercive” and “threatens [state]
sovereignty.” Id. Plaintiff also asserts that USCIS’s
interpretation is contrary to other “[i]mmigration
laws [that] have long recognized the validity of State
court orders.” Doc. 28 at 14.
Defendants respond, arguing that the court
should disregard plaintiff’s Tenth Amendment
argument because the agency did not use Kansas law
as a basis for its determination. Defendants
alternatively argue that, if the court considers
In his Opening Brief, plaintiff also notes that equal protection
rights are applied to state action through the Fourteenth
Amendment. See Weinberger v. Wiesenfeld, 420 U.S. 636, 638 n.2
(1975). But the court summarizes plaintiff’s equal protection
arguments here under the Fifth Amendment because the
plaintiff is challenging a federal agency’s actions.
6
The Tenth Amendment provides: “The powers not delegated to
the United States by the Constitution, nor prohibited by it to the
States, are reserved to the States respectively, or to the people.”
5

79a
plaintiff’s Tenth Amendment argument, “the
Supremacy Clause [of Article VI of the Constitution]
controls the interaction between state laws regarding
family law and immigration law.” Doc. 27 at 25.
Defendants also contend that their interpretation of
§ 1101(b)(1)(C) does not disturb state-issued adoption
decrees—the agency merely evaluates those decrees
in light of federal immigration statutes to determine
whether a child is “legitimated.” Doc. 27 at 26.
Defendants argue that “Congress could not establish
a uniform rule of naturalization if a state court could
modify Congress’s mandates on qualifications for
naturalization.” Doc. 27 at 27.
Defendants also assert that plaintiff did not raise
his Equal Protection argument—the argument based
on ART—before the agency, and thus the court should
not consider it in this limited review. Doc. 27 at 21.
Specifically,
defendants
distinguish
between
plaintiff’s claims about the constitutionality of the
agency’s interpretation (which the agency has
jurisdiction to decide) and constitutional challenges to
the statute itself (which, it says, the agency lacks
jurisdiction to hear). Doc. 27 at 28. Alternatively,
defendants “do not concede” (Doc. 27 at 25) that
Kansas law defines adoption as a form of legitimation.
They also argue that non-genetic gestational mothers
carry and give birth to their children, which
differentiates these mothers from non-genetic
adoptive parents like plaintiff. Doc. 27 at 29–30. The
two groups, defendants contend, are not similarly
situated for purposes of equal protection analysis. And
even if the court decides that the groups are similarly
situated, defendants argue, differentiating between
them should be subject merely to rational basis
review. Doc. 27 at 30. Defendants profess that they
easily can articulate sufficient immigration-based

80a
grounds to justify different treatment for non-genetic
gestational mothers and non-genetic adoptive fathers.
Doc. 27 at 30–32.
In the sections below, the court first evaluates
whether it can consider plaintiff’s arguments about
ART and state law definitions of legitimation.
Deciding that it cannot consider those arguments, the
court then considers whether it nonetheless can
consider plaintiff’s constitutional arguments now.
1.
Plaintiff’s Arguments Based on
ART and Kansas Law
An agency “must have [had] the opportunity to
rule on a challenger’s arguments before the challenger
may bring those arguments to court.”
GarciaCarbajal v. Holder, 625 F.3d 1233, 1237 (10th Cir.
2010). “‘A reviewing court usurps the agency’s
function when it sets aside the administrative
determination upon a ground not theretofore
presented and deprives the [agency] of an opportunity
to consider the matter, make its ruling, and state the
reasons for its action.’” Id. (quoting Unemployment
Comp. Comm’n of Alaska v. Aragon, 329 U.S. 143, 155
(1946)). Our Circuit and the Supreme Court have
outlined the policy rationales for this rule: “to avoid
premature interference with agency processes, to give
the agency the opportunity to correct its own errors,
and to afford the parties the benefits of whatever
expertise the agency may possess.” Id. (noting that
the Circuit has “refuse[d] to consider arguments—
sometimes very good arguments—that were not
presented to the agency before being presented to [the
court]”).
Also, plaintiffs must have raised their claims
during the administrative proceedings “in sufficient
detail to allow the agency to rectify the alleged
violation.” Forest Guardians v. U.S. Forest Serv., 641

81a
F.3d 423, 430 (10th Cir.) (“[T]he claims raised at the
administrative appeal and in the federal complaint
must be so similar that the district court can ascertain
that the agency was on notice of, and had an
opportunity to consider and decide, the same claims
now raised in federal court.” (citing Kleissler v.
U.S. Forest Serv., 183 F.3d 196, 202 (3d Cir. 1999))).
Plaintiffs are required to “‘structure their
participation so that it alerts the agency to the parties’
position and contentions, in order to allow the agency
to give the issue meaningful consideration.’” Id.
(quoting Forest Guardians v. U.S. Forest Serv., 495
F.3d 1162, 1170 (10th Cir. 2007). Because the court
must consider the agency’s action based on the “whole
record,” the court begins by closely reviewing the
arguments plaintiff made in his filings with USCIS
and the BIA. See 5 U.S.C. § 706; Chenery Corp., 318
U.S. at 87.
The court turns first to plaintiff’s ART arguments.
The administrative record shows that plaintiff
referenced ART in a footnote in his Brief in Support of
Appeal from Denial of I-130 Petition for Alien Relative
by United States Citizenship and Immigration
Services. Doc. 16 at 32. In that footnote, plaintiff
argued:
A biological requirement, as the sole []
controlling factor has been minimized in
context of legitimated children to some degree
as of October 28, 2014. USCIS issued policy
guidance in the USCIS Policy Manual and
Adjudicator’s Field Manual outlining that a
non-genetic gestational mother (person who
carried and gave birth to the child) who is also
the child’s legal mother may be recognized in
the same way as genetic legal mothers are
treated under the INA.

82a
Id. But the record does not reflect that plaintiff made
any additional argument about ART in the briefing he
submitted to the agency. See Doc. 16 at 26–35, 122–26
(The court considered the arguments plaintiff made to
USCIS in his Memorandum of Law in Support of I-130
Petition for Legitimated Child Under INA
101(b)(1)(C) and to the BIA in his Brief in Support of
Appeal from Denial of I-130 Petition for Alien Relative
by United States Citizenship and Immigration
Services. These portions of the agency record show the
limited nature of plaintiff’s arguments before the
agency.). The lone footnote in plaintiff’s Brief argued
simply that the USCIS had placed less weight on the
biological connection between parents and children
when it recognized non-genetic gestational mothers
under the INA. The footnote is couched in plaintiff’s
arguments about a case the Tenth Circuit had
decided, Pfeifer v. Wright, 41 F.2d 464 (10th Cir.
1930), and Pfeifer’s discussion of adoption and
legitimation under Kansas law. The principal text of
plaintiff’s argument never mentions ART.
But in his Opening Brief now, plaintiff advances
more complex and nuanced constitutional arguments.
Namely, he asserts that: (1) because the agency
recognized non-genetic relationships in the ART
context, it was required to recognize plaintiff’s nongenetic relationship with his daughter for
legitimation purposes; (2) because non-genetic
mothers, in the context of ART, were required to
formalize their legal relationship with their children
after those children were born, the court should draw
a comparison to plaintiff’s formalization of the
adoption of his daughter; and (3) past BIA
determinations requiring a biological connection
between parents and “legitimated” children are
incompatible with the agency’s policy statement about

83a
ART. But as the administrative record shows, plaintiff
merely described the agency’s October 28, 2014, policy
on ART as a trend toward “minimiz[ing]” the
biological prerequisite “in [the] context of legitimated
children to some degree.” Doc. 16 at 31.
Plaintiff did not present his current arguments to
the agency, and thus the agency did not have
adequate ability to consider or review them. Merely
mentioning the agency’s ART policy—which is all
plaintiff did during the administrative proceedings—
failed to present the detailed arguments that plaintiff
raises here in his Opening Brief. He did give the
agency notice of his argument that the biological
requirement had been “minimized” in the ART
context. But his cursory references deprived the
agency of notice that: (1) plaintiff would ask the
agency to treat plaintiff’s relationship with his
daughter in the same fashion as non-genetic mothers’
relationships with their children; (2) plaintiff
contended that his adoption formalization was
comparable to non-genetic mothers’ formalization of
their relationships with their children; or (3) plaintiff
would assert that the BIA’s own decisions are
incompatible with the agency’s ART policy statement.
Plaintiff invokes Darby v. Cisneros, contending
that it means he was not required to appeal the
Director’s decision to the BIA and exhaust that
appellate remedy. But the court’s inquiry, as
described in Garcia-Carbajal, must ask not only
whether plaintiff exhausted his remedies; instead, it
also must ask whether he exhausted specific
arguments. See Garcia-Carbajal, 625 F.3d at 1237.
Plaintiff did not raise the particular ART arguments
listed above in his memoranda to the agency. So, no
matter how persuasive the court might find plaintiff’s
detailed ART arguments now, the court cannot

84a
consider them. See id. (noting that our Circuit has not
considered the merits of arguments not presented to
an agency before presenting them for judicial review).
The court also concludes that it cannot reach the
question whether Kansas law includes adoption as a
method of legitimation or whether the agency’s
interpretation of § 1101(b)(1)(C) thus abridges Kansas
law. The Supreme Court has limited the court’s
review. “The grounds upon which an administrative
order must be judged are those upon which the record
discloses that its action was based.” SEC v. Chenery
Corp., 318 U.S. 80, 87 (1943). The court also must
assess whether “the grounds upon which the
administrative agency acted [are] clearly disclosed
and adequately sustained.” Id. at 94. Here, neither
Director Mark Hazuda, who initially denied plaintiff’s
I-130 visa petition, nor the BIA, on appeal, discussed
whether Kansas law defines adoption as legitimation.
Doc. 16 at 109–11, 67–69. On June 10, 2016, the
Director denied plaintiff’s I-130 petition because:
(1) Hyebin was more than 16 years old when she was
adopted; (2) USCIS had sent plaintiff a Notice of
Intent to Deny, asking for evidence that satisfied the
requirements for § 1101(b)(1)(E)’s adoption provision;
and (3) Hyebin did not qualify as a “legitimated” child
under § 1101(b)(1)(C) because plaintiff is not her
“natural father.” Doc. 16 at 109–10. On June 5, 2017,
the BIA denied plaintiff’s visa petition because:
(1) Hyebin “had already reached the age of 16 at the
time of adoption”; and (2) the BIA’s decision in Matter
of Bueno, 21 I. & N. Dec. 1029 (BIA 1997), which
required that the plaintiff be the biological parent of
the child in question, controlled the agency’s decision.
The BIA considered but declined to discuss amicus
curiae’s arguments about Kansas law in the rationale
for its decision because Bueno had superseded those

85a
arguments. The BIA also ruled that it did not have
jurisdiction to address plaintiff’s constitutional
arguments because it “does not have jurisdiction to
rule on the constitutionality of the law it administers.”
Doc. 16 at 67–69.
The Director and the BIA clearly and adequately
stated the grounds for their decisions denying
plaintiff’s visa petition. Neither the Director nor the
BIA based their decisions on plaintiff or the amicus
curiae’s arguments that Kansas law defines adoption
as a form of legitimation. The court thus determines
that it cannot question whether Kansas law classifies
adoption as a method of legitimation.
2.
Jurisdiction over Plaintiff’s
Constitutional Arguments
Finally, plaintiff’s assertion of constitutional
arguments in this appeal does not permit the court to
use those arguments as a jurisdictional foothold. The
Circuit has distinguished “between constitutional
applicability of legislation to particular facts and
constitutionality of the legislation.” McGrath v.
Weinberger, 541 F.2d 249, 251–52 (10th Cir. 1976)
(internal quotations omitted) (“The clear language of
the rule requiring exhaustion of administrative
remedies before seeking judicial review does not,
however, render the rule simple in application.”).
McGrath explained, “We commit to administrative
agencies the power to determine constitutional
applicability, but we do not commit to administrative
agencies the power to determine the constitutionality
of legislation.” Id. (internal quotations omitted). The
Circuit has recognized that there are “further
exception[s] to the [administrative exhaustion] rule”
in “cases involving the presence of constitutional
questions, coupled with a showing of inadequacy of
the prescribed administrative relief against the

86a
background of threatened or impending irreparable
injury flowing from the delay incident to pursuit of the
available administrative processes.” Id.
Here, plaintiff raises constitutional challenges to
the agency’s interpretation of § 1101(b)(1)(C). He
challenges the differences between the agency’s
treatment of ART and its determination in his case.
He also contests the agency’s interpretation of
§ 1101(b)(1)(C) because it allegedly usurped Kansas
family law determinations. But these constitutional
challenges to the agency’s interpretation of the
statute—rather than to the statute itself—are
“commit[ted] to administrative agencies.”
See
McGrath, 541 F.2d at 251. Plaintiff’s arguments here
require an analysis of the “constitutional applicability
of legislation to particular facts,” but not an
assessment of the “constitutionality of the legislation”
or particular provisions of the statute. See id.
Also, plaintiff’s case does not fall under the
exception that the Circuit has recognized. To be sure,
plaintiff’s claims here try to present constitutional
issues. But none of them is “coupled with” any
showing that the administrative relief he sought has
produced “threatened or impending irreparable
injury” because of delay. In his Reply Brief, plaintiff
notes that he was not required to appeal the Director’s
denial of his visa petition to the BIA. Yet, plaintiff
chose to appeal. Because plaintiff’s appeal was a
discretionary one, the court cannot conclude that
plaintiff faced irreparable injury because of the time
it took for him to pursue administrative remedies.
The court thus determines that the agency had
jurisdiction to review those claims that plaintiff raised
before it. The BIA considered arguments based on
Kansas law, but it declined to discuss these
arguments as grounds for its determination because

87a
of “controlling precedent” that required a biological
connection between a parent and “legitimated” child.
Nor can the court decide plaintiff’s arguments based
on ART or state law control of the definition of
legitimation. Those arguments involve challenges to
the agency’s application of the INA to plaintiff’s case,
and such arguments are “commit[ted]” to the agency.
McGrath, 541 F.2d at 251.
IV.
Conclusion
For the reasons explained, the court affirms the
decisions by USCIS and the BIA in plaintiff’s case and
denies plaintiff’s request to reverse the agency’s
decision. The court concludes that the provision in
question, 8 U.S.C. § 1101(b)(1)(C), is not ambiguous.
The statute’s plain meaning requires a biological
connection between a visa petitioner and his
beneficiary for purposes of § 1101(b)(1)(C). The court
also concludes that the agency interpreted the statute
in accordance with its plain meaning. Finally, the
court determines that it cannot consider the plaintiff’s
constitutional
challenges
to
the
agency’s
interpretation of § 1101(b)(1)(C).
IT IS THEREFORE ORDERED THAT
defendant’s request in his Opening Brief (Doc. 21) to
overturn the United States Citizenship and
Immigration Services’ and Board of Immigration
Appeals’ determinations in his case is denied.
IT IS SO ORDERED.
Dated this 28th day of September, 2018, at
Kansas City, Kansas.
s/ Daniel D. Crabtree
Daniel D. Crabtree
United States District Judge

88a
APPENDIX C

U.S. Department of
Justice
Executive Office for
Immigration Review

Decision of the Board of
Immigration Appeals

Falls Church, Virginia 22041
File: [REDACTED] 378 —
Nebraska Service Center

Date: Jun – 5 2017

In re: HYEBIN YOO SCHREIBER, Beneficiary of
visa petition filed by PATRICK SCHREIBER,
Petitioner
IN VISA PETITION PROCEEDINGS
APPEAL
ON BEHALF OF PETITIONER:
Rekha Sharma-Crawford, Esquire
AMICUS CURIAE FOR PETITIONER:
Gillian R. Chadwick, Esquire 1
ON BEHALF OF DHS:

Christian A. Martinez
Associate Counsel

APPLICATION: Petition to classify status of alien
relative for issuance of immigrant visa
The petitioner has appealed the Nebraska Service
Center Director’s June 10, 2016, decision denying the
1
We acknowledge and appreciate the brief submitted by amicus
curiae representing the Washburn Law Clinic & Children and
Family Law Center at the Washburn University School of Law.

89a
visa petition filed on behalf of the beneficiary as his
adopted child. We review all questions arising in
appeals from decisions of United States Citizenship
and Immigration Services officers de nova. See 8
C.F.R. § 1003.1(d)(3)(iii). The appeal will be
dismissed.
We have reviewed the record of proceedings and
affirm the decision of the Director for the reasons set
forth in the decision. Under the laws of the United
States, the definition of the term “child” in section
101(b)(1)(E) of the Immigration and Nationality Act,
8 U.S.C. § 1101(b)(1)(E), includes an adopted child
only if, among other requirements, the child was
“adopted while under the age of sixteen years.” As the
record reflects that the beneficiary had already
reached the age of 16 at the time of the adoption, the
appeal from the denial of the visa petition must be
dismissed.
To the extent that the petitioner and amicus
curiae argue that the beneficiary could be considered
a legitimated child under section 101(b)(1)(C) of the
Act, that section is not applicable to adopted children.
This Board, in Matter of Buena, 21 I&N Dec. 1029
(BIA 1997), specifically held that, in order to qualify
as the legitimated child of the petitioner under section
10I(b)(1)(C) of the Act, the beneficiary must be the
biological child of the petitioner. We note that the
petitioner has not argued that he is the beneficiary’s
biological parent. Wehave considered amicus curiae’s
arguments regarding Kansas law but are not
persuaded that such arguments overcome the
controlling precedent of Matter of Buena, supra. To
the extent that constitutional arguments have been
raised, the Board does not have jurisdiction to rule on
the constitutionality of the laws it administers. See

90a
Matter of Fuentes-Campos, 21 I&N Dec. 905, 912 (BIA
1997)
Accordingly, the following order will be entered.
ORDER: The appeal is dismissed.
[handwritten signature]
FOR THE BOARD

91a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

LT. COL. PATRICK
SCHREIBER,
Plaintiff - Appellant,
v.
TRACY RENAUD, Acting
Director, U.S. Citizenship
and Immigration Services,
et al.,

No. 18-3215
(D.C. No. 2:17-CV02371-DDC-JPO)
(D. Kan.)

Defendants - Appellees.
CHILDREN AND FAMILY
LAW CENTER, et al.,
Amici Curiae.

ORDER
Before TYMKOVICH, Chief Judge, BALDOCK, and
HOLMES, Circuit Judges.
Appellant’s petition for rehearing is denied.

92a
The petition for rehearing en banc was
transmitted to all of the judges of the court who are in
regular active service. As no member of the panel and
no judge in regular active service on the court
requested that the court be polled, that petition is also
denied.
Entered for the Court
[handwritten signature]
CHRISTOPHER M. WOLPERT, Clerk

